APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_________
CELLSPIN SOFT, INC.,
Plaintiff-Appellant,
v.
FITBIT, INC., MOOV, INC., DBA MOOV FITNESS, INC.,
NIKE, INC., FOSSIL GROUP, INC., MISFIT, INC., GARMIN
INTERNATIONAL, INC., GARMIN USA, INC., CANON
U.S.A., INC., GOPRO, INC., PANASONIC CORPORATION
OF NORTH AMERICA, JK IMAGING LTD.,
Defendants-Appellees.
_________
2018-1817, 2018-1819, 2018-1820, 2018-1821, 20181822, 2018-1823, 2018-1824, 2018-1825, 2018-1826
_________
Appeals from the United States District Court for the
Northern District of California in Nos. 4:17-cv-05928YGR, 4:17-cv-05929-YGR, 4:17-cv-05931-YGR, 4:17cv-05933-YGR, 4:17-cv-05934-YGR, 4:17-cv-05938YGR, 4:17-cv-05939-YGR, 4:17-cv-05941-YGR, 4:17cv-06881-YGR, Judge Yvonne Gonzalez Rogers.
_________

2a
CELLSPIN SOFT, INC.,
Plaintiff-Appellant,
v.
FITBIT, INC., MOOV, INC., DBA MOOV FITNESS, INC.,
NIKE, INC., FOSSIL GROUP, INC., MISFIT, INC., CANON
U.S.A., INC., GOPRO, INC.,
Defendants-Appellees.
_________
2018-2178, 2018-2179, 2018-2180, 2018-2181, 20182183, 2018-2184
_________
Appeals from the United States District Court for the
Northern District of California in Nos. 4:17-cv-05928YGR, 4:17-cv-05929-YGR, 4:17-cv-05931-YGR, 4:17cv-05933-YGR, 4:17-cv-05938-YGR, 4:17-cv-05939YGR, Judge Yvonne Gonzalez Rogers.
_________
Decided: June 25, 2019
_________
JOHN J. EDMONDS, Edmonds & Schlather, PLLC,
Houston, TX, argued for plaintiff-appellant.
STANLEY JOSEPH PANIKOWSKI, III, DLA Piper LLP
(US), San Diego, CA, argued for all defendantsappellees in 2018-1817. Defendant-appellee Nike,
Inc. in 2018-1817 and 2018-2178 also represented by
RICHARD T. MULLOY; AMY WALTERS, East Palo Alto,
CA.
RICARDO BONILLA, Fish & Richardson PC, Dallas,
TX, argued for all defendants-appellees in 20182178. Defendants-appellees Fossil Group, Inc.,

3a
Misfit, Inc. in 2018-1817 and 2018-2178 also
represented by DAVID BRANDON CONRAD, THERESA
DAWSON, NEIL J. MCNABNAY; DALIA BETH KOTHARI,
Redwood City, CA.
DAVID SHANE BRUN, Venable, LLP, San Francisco,
CA, for defendants-appellees Fitbit, Inc., Moov, Inc.
Also represented by INDRA NEEL CHATTERJEE,
Redwood City, CA; LESLIE A. LEE, Washington, DC.
RACHAEL D. LAMKIN, Lamkin IP Defense, San
Francisco, CA, for defendants-appellees Garmin
International, Inc., Garmin USA, Inc. in 2018-1817.
RYAN SETH GOLDSTEIN, Quinn Emanuel Urquhart
& Sullivan, LLP, Los Angeles, CA, for defendantappellee Canon U.S.A., Inc. Also represented by
JEFFREY JAKHONG UNG; JARED WESTON NEWTON,
Washington, DC.
KARINEH KHACHATOURIAN, Rimon, P.C., Palo Alto,
CA, for defendant-appellee GoPro, Inc. Also
represented
by
NIKOLAUS A. WOLOSZCZUK.
Defendant-appellee GoPro, Inc. in 2018-1817 also
represented by DANIEL T. MCCLOSKEY, Duane Morris
LLP, Palo Alto, CA.
T. VANN PEARCE, JR., Orrick, Herrington & Sutcliffe
LLP, Washington, DC, for defendant-appellee
Panasonic Corporation of North America in 20181817. Also represented by MELANIE L. BOSTWICK,
STEN JENSEN; JASON KANG YU, Menlo Park, CA.
IRFAN A. LATEEF, Knobbe, Martens, Olson & Bear,
LLP, Irvine, CA, for defendant-appellee JK Imaging
Ltd. in 2018-1817. Also represented by DANIEL C.
KIANG.

4a
_________
Before LOURIE, O’MALLEY, and TARANTO, Circuit
Judges.
O’MALLEY, Circuit Judge.
Cellspin Soft, Inc. (“Cellspin”) sued Fitbit, Inc.
(“Fitbit”), Moov, Inc. (“Moov”), Nike, Inc. (“Nike”),
Fossil Group, Inc. and Misfit, Inc. (“Fossil”), Garmin
International, Inc. and Garmin U.S.A., Inc.
(“Garmin”), Canon U.S.A., Inc. (“Canon”), GoPro, Inc.
(“GoPro”), Panasonic Corporation of America
(“Panasonic”), and JK Imaging LTD (“JKI”)
(collectively “Appellees”) for infringing various
claims of four different patents. Appellees moved to
dismiss, arguing that the patents are ineligible for
patent protection under 35 U.S.C. § 101. The district
court granted these motions and subsequently
awarded attorney fees to Fitbit, Moov, Nike, Fossil,
Canon, and GoPro under 35 U.S.C. § 285. See
Cellspin Soft, Inc. v. Fitbit, Inc., 316 F. Supp. 3d
1138, 1143 (N.D. Cal. 2018) (“101 Order”); Cellspin
Soft, Inc. v. Fitbit, Inc., No. 4:17-cv-5928-YGR, 2018
WL 3328164 (N.D. Cal. July 6, 2018) (“Attorney Fees
Order”). Because we conclude that the district court
misapplied our precedent in granting Appellees’
motions to dismiss, we vacate its grant of the
motions to dismiss, vacate its award of attorney fees,
and remand for further proceedings consistent with
this opinion.

5a
I. BACKGROUND
A. The Asserted Patents
All four asserted patents—U.S. Pat. No. 8,738,794
(“the ’794 patent”), U.S. Pat. No. 8,892,752 (“the ’752
patent”), U.S. Pat. No. 9,258,698 (“the ’698 patent”),
and U.S. Pat. No. 9,749,847 (“the ’847 patent”)—
share the same specification and generally relate to
connecting a data capture device, e.g., a digital
camera, to a mobile device so that a user can
automatically publish content from the data capture
device to a website. Each patent is described in more
detail below.
1. The ’794 Patent
According to the ’794 patent, which issued May
2014, prior art devices could digitally capture
images, video, or other types of content. To upload
that content on the Internet, however, users had to
transfer their content onto a personal computer
using a memory stick or cable.
The ’794 patent teaches a way to transfer and
upload data “automatically or with minimal user
intervention” using a “data capture device” and a
“mobile device.” ’794 patent, col. 1, ll. 64 – col. 2, ll. 1.
These two devices communicate via short-range
wireless communication protocols such as Bluetooth.
Id. at col. 2, ll. 18–22. In particular, a “client
application” on the mobile device detects and
receives content from the data capture device over
the wireless connection. The mobile device then
“publish[es] the data and multimedia content on one
or more websites automatically or with minimal user
intervention.” Id. at col. 5, ll. 55–59.

6a
Cellspin asserts claims 1–4, 7, 9, 16–18, and 20–21
of the ’794 patent. On appeal, Cellspin does not agree
that any of its claims are representative of the ’794
patent or the asserted patents as a whole. Even so,
Cellspin offers separate arguments only as to
independent claims 1 and 16. The remaining claims
depend from these two independent claims.
Claim 1 recites:
1. A method for acquiring and transferring
data from a Bluetooth enabled data capture
device to one or more web services via a
Bluetooth enabled mobile device, the method
comprising:
providing a software module on the Bluetooth enabled data capture device;
providing a software module on the Bluetooth enabled mobile device;
establishing a paired connection between
the Bluetooth enabled data capture device
and the Bluetooth enabled mobile device;
acquiring new data in the Bluetooth
enabled data capture device, wherein new
data is data acquired after the paired
connection is established;
detecting and signaling the new data for
transfer to the Bluetooth enabled mobile
device, wherein detecting and signaling the
new data for transfer comprises:
determining the existence of new data
for transfer, by the software module on

7a
the Bluetooth enabled data capture
device; and
sending a data signal to the Blue-tooth
enabled mobile device, corresponding to
existence of new data, by the software
module on the Bluetooth enabled data
capture device automatically, over the
established
paired
Bluetooth
connection, wherein the software
module on the Bluetooth enabled mobile
device listens for the data signal sent
from the Bluetooth enabled data
capture device, wherein if permitted by
the software module on the Bluetooth
enabled data capture device, the data
signal sent to the Bluetooth enabled
mobile device comprises a data signal
and one or more portions of the new
data;
transferring the new data from the
Bluetooth enabled data capture device to
the Bluetooth enabled mobile device
automatically over the paired Bluetooth
connection by the software module on
the Bluetooth enabled data capture
device;
receiving, at the Bluetooth enabled
mobile device, the new data from the
Bluetooth enabled data capture device;
applying, using the software module on
the Bluetooth enabled mobile device, a
user identifier to the new data for each

8a
destination web service, wherein each
user identifier uniquely identifies a
particular user of the web service;
transferring the new data received by the
Bluetooth enabled mobile device along
with a user identifier to the one or more
web services, using the software module
on the Blue-tooth enabled mobile device;
receiving, at the one or more web
services, the new data and user
identifier from the Bluetooth enabled
mobile device, wherein the one or more
web services receive the transferred
new data corresponding to a user
identifier; and
making available, at the one or more
web services, the new data received
from the Bluetooth enabled mobile
device for public or private consumption
over the internet, wherein one or more
portions of the new data correspond to a
particular user identifier.
’794 patent, col. 11, ll. 48 – col. 12, ll. 38 (emphases
added).
As relevant here, claim 1 requires establishing a
paired connection between the data capture device
and the mobile device before data is transmitted
between the two. The claim also describes a “push”
mode for sending files in which a “data signal” is sent
from the data capture device to the mobile device to
initiate a data transfer. Id. at col. 12, ll. 1–2.

9a
Claim 16 is essentially the same as claim 1, but
instead of reciting a “push” mode it describes a “pull”
mode in which the mobile device “poll[s] the
Bluetooth enabled data capture device” to ask
whether the data capture device has files to upload.
Id. at col. 14, ll. 30–35; see also id. at col. 4, ll. 30–34
(“In the pull mode, the client application 203 [on the
mobile device] periodically polls the digital data
capture device 201 to determine the creation of a new
file in the digital capture device 201.”).
2. The ’752 Patent
The ’752 patent, which issued November 2014,
shares its specification with the ’794 patent. Cellspin
asserts claims 1, 2, 4–5, and 12–14 of the ’752 patent,
but only offers separate arguments as to eligibility
with respect to claim 1.
Claim 1 of the ’752 patent includes limitations that
are substantially similar to the limitations of claim 1
of the ’794 patent, but the patents differ in two
important respects. First, the ’752 patent requires
the mobile device and data capture device to
establish a connection using a “cryptographic
encryption key.” ’752 patent, col. 11, ll. 54– 56. This
allows each device to “authenticate the identity” of
the other so the data capture device can “trust[]” that
its data is being securely transmitted to the right
mobile device. Id. at col. 3, ll. 61–63. Second, the ’752
patent requires the mobile device to transmit data
from the mobile device to an “internet service”
according to the hypertext transfer protocol
(“HTTP”). Id. at col. 12, ll. 16–36.

10a
3. The ’698 Patent
The ’698 patent, which issued February 2016, also
shares its specification with the ’752 patent and the
’794 patent. Cellspin asserts claims 1, 3–5, 7–8, 10–
13, 15–20 of the ’698 patent, but it only offers
separate arguments as to claim 5.
Unlike the ’794 and the ’752 patents, claim 5 of the
’698 patent does not claim a generic data capture
device nor does it mention Bluetooth. Instead, the
claim recites a “digital camera” that communicates
with a cellular phone using “short-range wireless”
signals. Id. The ’698 patent acknowledges, however,
that Bluetooth is an example of a short-range
wireless communication protocol. Id. at col. 3, ll. 55–
59 (“[Bluetooth] provides a method of connecting and
exchanging information between devices, for
example, mobile phones, laptops, personal computers
(PCs), printers, digital cameras, etc. over a secure
and globally unlicensed short-range wireless
frequency.”). Otherwise, claim 5 includes limitations
that are substantially similar to the limitations of
claim 1 of the ’752 patent.
4. The ’847 Patent
The ’847 patent, which issued August 2017, shares
its specification with the other three asserted
patents. Cellspin asserts claims 1–3 of the ’847
patent, but it only offers separate arguments as to
claim 1.
Claim 1 of the ’847 patent includes limitations that
are substantially similar to the limitations of claim 1
of the ’752 patent. For example, claim 1 of the ’847
patent recites “a Bluetooth enabled data capture

11a
device” that can establish a connection with a mobile
device after “cryptographically authenticat[ing] [the]
identity of the Bluetooth enabled cellular phone” and
before transmitting data. ’847 patent, col. 12, ll. 14–
25. Claim 1 also requires the mobile device to include
“a mobile application” that “listen[s] for the event
notification, sent from the Bluetooth enabled data
capture device . . . wherein the event notification
corresponds to the acquired new-data.” Id. at col. 12,
ll. 42– 51. Claim 1 further recites that the mobile
application “use[s] HTTP to transfer the new-data
. . . to the website, over the cellular data network.”
Id. at col. 12, ll. 62–67.
B. Procedural History
1. Pretrial Disputes
Cellspin filed more than a dozen cases alleging
infringement of the asserted patents. 101 Order, 316
F. Supp. 3d at 1143. As relevant here, Cellspin
asserted the ’794, ’752, and ’847 patents against
Appellees Fitbit, Moov, Nike, and Fossil. In another
set of cases, Cellspin asserted the ’698 patent against
Appellees Canon, GoPro, Panasonic, and JKI.
Cellspin also asserted all four patents against
Garmin.11
On January 16, 2018, Appellees, except for Garmin,
filed an omnibus motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), arguing that the
asserted patents are ineligible for patent protection

1

Several other defendants dropped out of the case before the
district court reached a decision on the merits. 101 Order, 316
F. Supp. 3d at 1143 n.1.

12a
under 35 U.S.C. § 101. Garmin separately filed a
similar motion to dismiss under Rule 12(c).
On February 16, 2018, Cellspin filed a notice of
supplemental authority citing Aatrix Software, Inc.
v. Green Shades Software, Inc., 882 F.3d 1121 (Fed.
Cir. 2018), and Berkheimer v. HP Inc., 881 F.3d 1360
(Fed. Cir. 2018). J.A. 2143. Cellspin then amended
its complaints on March 2, 2018, just a few days
before the district court’s scheduled hearing on
Appellees’ motions to dismiss. Attorney Fees Order,
2018 WL 3328164, at *2. Even so, the amendments
were within the time permitted by the district court’s
scheduling order. J.A. 2261 (permitting pleadings to
be amended “without the need for leave of Court, up
to, and including, June 5, 2018”).
After the March 6, 2018 hearing on Appellees’
motions, the district court ordered Appellees to file
supplemental
briefing
addressing
Cellspin’s
amended complaints. 101 Order, 316 F. Supp. 3d at
1154 n.12. In response, Appellees argued that
Cellspin’s amended complaints “d[id] not change the
legal conclusion that Cellspin’s patents are invalid
under Section 101.” J.A. 2355.
2. The District Court’s 101 Order
The district court granted Appellees’ motions based
on the two-step framework for analyzing patent
eligibility articulated in Mayo Collaborative Services
v. Prometheus Laboratories, Inc., 566 U.S. 66 (2012),
and Alice Corp. v. CLS Bank International, 573 U.S.

13a
208 (2014). 101 Order, 316 F. Supp. 3d at 1146–48,
1150.2
As to step one, the district court concluded that the
asserted claims of the ’794 patent are directed to the
abstract idea of “acquiring, transferring, and
publishing data and multimedia content on one or
more websites.” Id. at 1150. Analogizing to In re TLI
Communications LLC Patent Litigation, 823 F.3d
607 (Fed. Cir. 2016), the district court explained that
the asserted claims use “generic computer hardware
and software components” to automate the
conventional, manual process of transferring data
from one device to another. Id. at 1150–52. It
therefore concluded that “Cellspin fail[ed] to show
that the data acquisition, transfer, and publication
described in the ’794 Patent represents something
more than a simple automation of [a] conventional
(manual) process,” i.e., an abstract idea. Id. at 1151.
As to step two, the district court found that the
asserted claims of the ’794 patent do not recite an
“inventive concept.” Id. at 1152. In particular, the
district court concluded that the various claim
elements, e.g., the data capture device and Bluetooth
enabled mobile device, represent generic computer
components performing “as expected according to
their ordinary use.” Id. (quoting TLI, 823 F.3d at
615). In a footnote, the district court acknowledged
Cellspin’s argument that there was a factual dispute
about whether the “combination” of these elements
was “well-understood, routine and conventional.” Id.
2

The district court entered individual but essentially
identical orders in each related case. We will refer to a single
order throughout.

14a
at 1154–55 n.12 (citing Berkheimer, 881 F.3d 1360).
But the district court concluded that it “need not
reach the issue” for two reasons. Id. First, the
district court distinguished Berkheimer because it
arose “at the summary judgment stage, not in the
context of a motion to dismiss.” Id. Second, the
district court faulted Cellspin for not “identify[ing]
any portion of the [’794 patent’s] specification” that
described the inventive concepts Cellspin alleged in
its amended complaints. Id.
The district court also concluded that the
remaining asserted claims from the other asserted
patents were all directed to a “substantially similar
abstract idea” as the ’794 patent. Id. at 1155. And,
while the court recognized various differences
between the asserted claims across the different
patents, it explained that none of these differences
evidenced an inventive concept. Id. The district court
therefore concluded that none of the asserted claims,
from any of the asserted patents, were patent
eligible. Id.
3. The District Court’s Attorney Fees Order
After the district court granted the motions to
dismiss, Appellees Fitbit, Moov, Nike, Fossil, Canon,
and GoPro moved for attorney fees under 35 U.S.C.
§ 285. Attorney Fees Order, 2018 WL 3328164, at *1.
The district court subsequently awarded attorney
fees.
In finding that the case was “exceptional” under
§ 285, the district court found that Cellspin’s claims
were “manifestly directed to an abstract idea.” Id. at
*3 (quoting Inventor Holdings, LLC v. Bed Bath &

15a
Beyond, Inc., 876 F.3d 1372, 1377-78 (Fed. Cir.
2017)). Although the district court’s fees order did
not discuss the second step of Alice, the court
concluded that Cellspin’s claims were “exceptionally
meritless.” Id. The district court also found that Cellspin litigated its claims “aggressively.” Id. In doing
so, the district court noted that Cellspin “did not
agree to stay discovery pending resolution of [the
§ 101 motions] until after the hearing on [the
motions].” Id. The court also faulted Cellspin for
amending its complaint “only three days prior to the
hearing on [the motions to dismiss].” Id.
Acknowledging that “this conduct may not amount to
bad faith litigation,” the district court still viewed it
as “contribut[ing] to the totality of the circumstances
weighing in favor of a fee award.” Id.
The district court also criticized Cellspin for a
“refusal to analyze its patents critically” before filing
suit. Id. at *4. According to the district court,
Cellspin “could have litigated a test case but instead
chose to file and pursue aggressively fourteen
lawsuits simultaneously.” Id. While Cellspin argued
that it did not need to file a test case because its
patents were presumptively valid, the district court
concluded that Cellspin’s patents “are not presumed
eligible under Section 101.” Id. at *3–4 (citing
Ultramerical, Inc. v. Hulu, LLC, 772 F.3d 709, 721
(Fed. Cir. 2014) (Mayer, J., concurring)).
The district court ultimately awarded fees for the
entire case because “the exceptionally meritless
nature of this case extend[ed] well beyond the
[motions to dismiss] and applie[d] to Cellspin’s
decision to bring these actions in the first place.” Id.
at *5. Even so, the district court found that the fee

16a
requests by Nike, Fossil, and Canon were
“excessive.” Id. It therefore capped their fee awarded
at $180,000, $100,000, and $100,000 respectively. Id.
Cellspin timely appealed the district court’s
dismissal and attorney fees orders. We have
jurisdiction with respect to both under 28 U.S.C.
§ 1295(a)(1).
II. DISCUSSION
Cellspin argues that its asserted claims are patent
eligible and so we should reverse the district court’s
dismissal and attorney fees awards. We address each
argument below.
A. Patent Eligibility
We review the grant of a motion to dismiss under
applicable regional circuit law. OIP Techs., Inc. v.
Amazon.com, Inc., 788 F.3d 1359, 1362 (Fed. Cir.
2015). As relevant here, the Ninth Circuit reviews
the grant of a motion to dismiss de novo. See Chavez
v. United States, 683 F.3d 1102, 1108 (9th Cir. 2012)
(noting that the analysis under Rule 12(b)(6) and
Rule 12(c) is “substantially identical”). This means
we “determine whether the facts alleged in the
complaint, taken as true, entitle the plaintiff to a
legal remedy.” Id. (internal quotation marks
omitted).
Under § 101, patents may be granted for “any new
and useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof.” 35 U.S.C. § 101. According to
the Supreme Court, this statutory text includes an
important but implicit exception for laws of nature,

17a
natural phenomena, and abstract ideas. See Alice,
573 U.S. at 216. Claims for these categories of
inventions are not patent eligible. Id.
To distinguish between eligible and ineligible
patent claims, the Supreme Court has fashioned a
two-step test. Id. at 217–18 (citing Mayo, 566 U.S. at
72–73, 77–79). At step one of the Alice/Mayo
framework, we ask whether the claim at issue is
“directed to . . . [a] patent-ineligible concept[],” such
as an abstract idea. Id. at 217. If so, we proceed to
step two, which the Supreme Court has described as
“a search for an ‘inventive concept’—i.e., an element
or combination of elements that is ‘sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible
concept] itself.’” Id. at 217–18 (quoting Mayo, 566
U.S. at 73). We have held that deciding whether
claims recite an “inventive concept,” or something
more than “well-understood, routine, conventional
activities previously known to the industry,” id. at
225 (internal brackets omitted), may turn on
underlying “question[s] of fact,” Aatrix, 882 F.3d at
1128.
Applying this two-step framework, we agree with
the district court that the asserted claims are
directed to an abstract idea. 101 Order, 316 F. 316 F.
Supp. 3d at 1150. The district court erred with
respect to the inventive concept inquiry, however, by
ignoring allegations that, when properly accepted as
true, preclude the grant of a motion to dismiss.

18a
1. Step One
Alice did not establish any “precise contours” for
defining whether claims are directed to “abstract
ideas” or something else. 573 U.S. at 221 (“[W]e need
not labor to delimit the precise contours of the
‘abstract ideas’ category in this case.”). But we have
declined to read Alice “broadly [to] hold that all
improvements in computer-related technology are
inherently abstract and, therefore, must be
considered at step two.” Enfish, LLC v. Microsoft
Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016). In fact,
we have explained that claims directed to “an
improvement to computer functionality itself, not on
economic or other tasks for which a computer is used
in its ordinary capacity,” are patent eligible. Id. at
1336; Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1354 (Fed. Cir. 2016) (explaining that the
claims in Enfish were eligible “because [they] focused
not on asserted advances in uses to which existing
computer capabilities could be put, but on a specific
improvement . . . in how computers could carry out
one of their basic functions”).
According to Cellspin, the asserted claims are
directed to improving Internet-incapable data
capture devices and mobile networks. We disagree.
The asserted claims are drawn to the idea of
capturing and transmitting data from one device to
another. See, e.g., ’794 patent, col. 1, ll. 32–36 (“This
invention, in general, relates to distribution of
multimedia content. More particularly, this
invention relates to pairing a digital data capture
device in conjunction with a mobile device for
automatically publishing data . . . on one or more
websites simultaneously.”). As the district court

19a
recognized, we have consistently held that similar
claims reciting the collection, transfer, and
publishing of data are directed to an abstract idea.
See, e.g., Elec. Power, 830 F.3d at 1353
(acknowledging that claims reciting “collecting
information, analyzing it, and displaying certain
results” fall into “a familiar class of claims ‘directed
to’ a patent-ineligible concept”); TLI, 823 F.3d at
610–12 (concluding that claims reciting “recording
. . . transmitting . . . and storing” digital images were
directed to an abstract idea). These cases compel the
conclusion that the asserted claims are directed to an
abstract idea as well.
Cellspin
argues
that
these
cases
are
distinguishable
because
its
claims
recite
“technological improvements.” Appellant’s Br. at 25.
For example, Cellspin argues that its claims improve
data capture devices by allowing even “Internetincapable capture device[s]” to “transfer[] newly
captured data to the internet” via an “internet
capable mobile device.” Id. at 26, 54–58. But the
patents’ shared specification acknowledges that
users could already transfer data from a data
capture device—even an Internet-incapable device—
to a website. ’794 patent, col. 1, ll. 42–45 (describing
how users can “transfer the image off-line to [a] PC,
us[ing] a cable such as a universal serial bus
(USB)”). What the patents offered was a way to
automate this process. Id. at col. 1, ll. 48–54
(“[T]here is a need for a method and system to utilize
a digital data capture device . . . with a mobile device
for automatically detecting capture of data . . . ,
transferring the captured data . . . to the mobile
device, and publishing the data . . . on one or more

20a
websites automatically . . . .”). But the need to
perform tasks automatically is not a unique technical
problem. OIP Techs., 788 F.3d at 1363.
Cellspin also faults the district court for adopting
an “overly simplistic characterization” of the claims
that ignores important limitations. Appellant’s Br. at
46. We are not persuaded. While some of the
limitations noted by Cellspin—e.g., using HTTP—
may evidence an inventive concept, as explained
below, none of them change the fact that the claims
as a whole, across all four patents, are directed to an
abstract idea.
2. Step Two
Having concluded that the claims are directed to an
abstract idea, we next consider whether the claimed
elements—“individually
and
as
an
ordered
combination”—recite an inventive concept. Alice, 573
U.S. at 217 (internal quotation marks omitted). An
inventive concept reflects something more than the
application of an abstract idea using “wellunderstood, routine, and conventional activities
previously known to the industry.” Aatrix, 882 F.3d
at 1128 (internal quotation marks and brackets
omitted). It must be “‘enough’ to transform an
abstract idea into a patent-eligible invention.” Alice,
573 U.S. at 226 (quoting Mayo, 566 U.S. at 77). But
“[i]f a claim’s only ‘inventive concept’ is the
application of an abstract idea using conventional
and well-understood techniques, the claim has not
been transformed into a patent-eligible application of
an abstract idea.” BSG Tech LLC v. Buyseasons, Inc.,
899 F.3d 1281, 1290–91 (Fed. Cir. 2018).

21a
Cellspin’s allegations identify several ways in
which its application of capturing, transferring, and
publishing data was unconventional. For example,
Cellspin’s amended complaints noted that prior art
devices included “a capture device with built in
mobile wireless Internet.” J.A. 2290. 3 But these
devices were “inferior,” Cellspin alleged, “because,
especially at the time of the patent priority date . . .
the combined apparatus [was] bulky, expensive in
terms of hardware, and expensive in terms of
requiring a user to purchase an extra and/or
separate cellular service for the data capture device.”
Id. Against this backdrop, Cellspin alleged that it
was unconventional to separate the steps of
capturing and publishing data so that each step
would be performed by a different device linked via a
wireless, paired connection. J.A. 2292–2293. This
two-step,
two-device
structure
is
discussed
throughout the shared specification. See, e.g., ’794
patent, col. 2, ll. 2–54; J.A. 2290 (citing ’794 patent,
col. 2, ll. 2–3). Cellspin also alleged that this
structure provided various benefits over prior art
systems. For example, it means the device capturing
data only needs to serve one core function—
capturing data—and does not need to incorporate
other hardware and software components that might
be needed to store data or publish it onto the
Internet. J.A. 2290. Instead, the data capture device
can “[l]everag[e]” the hardware and software on a
user’s mobile device. J.A. 2292–2293. According to
3

Cellspin filed separate amended complaints with respect to
each Appellee. In relevant part, however, the amended
complaints are essentially identical. We will therefore refer to a
single amended complaint throughout.

22a
Cellspin, this allows data capture devices to be
smaller and cheaper to build. J.A. 2293 (discussing
how reducing the complexity of hardware allows for
smaller size, etc.). It also makes using data capture
devices simpler, e.g., one mobile device with one data
plan controls several data capture devices. J.A.
2293–2294. And uploading data via a separate
device, wirelessly paired to the data capture device,
allows users to access and upload data even if the
capture device is physically inaccessible to the user.
J.A. 2291.
Cellspin also alleged that its specific ordered
combination of elements was inventive. For example,
Cellspin alleged that “inferior” prior art data capture
devices “forward[ed] data to a mobile device as
captured.” J.A. 2290. By contrast, the claimed
inventions require establishing a paired connection
between the mobile device and the data capture
device before data is transmitted. ’794 patent, col. 11,
ll. 60–61. According to Cellspin, this ensures that
data is only transmitted if the mobile device is
capable of receiving it. J.A. 2290 (“[H]av[ing] the
capture device simply forward data to a mobile
device as captured . . . is inferior because, without a
paired connection, there is no assurance that the
mobile device is capable (e.g., on and sufficiently
near) of receiving the data.”). Cellspin also pointed to
its use of HTTP, by an “intermediary device” and
while the data is “in transit,” as being inventive. J.A.
2293–2294. Indeed, it specifically alleged that “HTTP
transfers of data received over [a] paired wireless
connection to web services [were] non-existent” prior
to its inventions. J.A. 2289; see also ’794 patent, col.
10, ll. 4–9 (discussing the use of HTTP); ’752 patent,

23a
col. 12, ll. 16–36 (reciting the use of HTTP); ’698
patent, col. 13, ll. 8–22 (same); ’847 patent, col. 12, ll.
62–67 (same).
The district court discounted these allegations in
granting Appellees’ motions to dismiss because
Cellspin “fail[ed] to cite to support in the [shared
specification]” for its allegations. 101 Order, 316 F.
Supp. 3d at 1154. In particular, the district court
required Cellspin to cite instances where the patents
treat this application of HTTP as inventive or
contemplate benefits like smaller, streamlined data
capture devices. Id. at 1153 (“The other proffered
benefits which relate to . . . [the] order or timing of
the Bluetooth wireless pairing; and elimination of
the need for bulky hardware and costly cell phone
services; do not appear in the patent’s specification.”
(internal footnote omitted)). In Aatrix, however, we
repeatedly cited allegations in the complaint to
conclude that the disputed claims were potentially
inventive. See, e.g., 882 F.3d at 1128 (“There are
concrete allegations in the second amended
complaint that individual elements and the claimed
combination are not well-understood, routine, or
conventional activity.”). While we do not read Aatrix
to say that any allegation about inventiveness,
wholly divorced from the claims or the specification,
defeats a motion to dismiss, plausible and specific
factual allegations that aspects of the claims are
inventive are sufficient. Id. As long as what makes
the claims inventive is recited by the claims, the
specification need not expressly list all the reasons
why this claimed structure is unconventional. In this
case, Cellspin made specific, plausible factual
allegations about why aspects of its claimed

24a
inventions were not conventional, e.g., its two-step,
two-device structure requiring a connection before
data is transmitted. The district court erred by not
accepting those allegations as true.
The district court also decided that it need not
credit Cellspin’s allegations because the case
Cellspin relied on for that proposition, Berkheimer,
could be distinguished because it arose in the context
of a motion for summary judgment. 101 Order, 316
F. Supp. 3d 1138, 1154–55 n.12 (“Berkheimer
addressed a defendant’s burden at the summary
judgment stage, not in the context of a motion to
dismiss.”). That conclusion is impossible to reconcile
with Aatrix, where we expressly stated that
“patentees who adequately allege their claims
contain inventive concepts survive a § 101 eligibility
analysis under Rule 12(b)(6).” Aatrix, 882 F.3d at
1126–27. The district court thus further erred by
ignoring the principle, implicit in Berkheimer and
explicit in Aatrix, that factual disputes about
whether an aspect of the claims is inventive may
preclude dismissal at the pleadings stage under §
101.
Accepting the allegations stated above as true, we
cannot conclude that the asserted claims lack an
inventive concept. 4 BASCOM Global Internet
Services, Inc. v. AT&T Mobility LLC is particularly
instructive on this point. 827 F.3d 1341, 1350 (Fed.
Cir. 2016) (“[A]n inventive concept can be found in
the non-conventional and non-generic arrangement
4

Given the similarities between the asserted claims, our
eligibility analysis applies equally to all claims asserted across
all four patents.

25a
of known, conventional pieces.”). In BASCOM, we
explained that the placement of a filtering tool “at a
specific location,” and configured in a particular way,
evidenced an inventive concept because the “limited
record” before us did not demonstrate that the
“specific method of filtering” claimed “ha[d] been
conventional or generic.” Id. On the limited record
here, and at this stage in the case, we reach the same
result with respect to the elements recited by the
asserted claims. As noted above, Cellspin specifically
alleged that using HTTP at a specific location, here
at the intermediary mobile device, was inventive.
J.A. 2289, 2293–2294. It further alleged that
establishing a paired connection before transmitting
data was inventive. J.A. 2290. We have no basis, at
the pleadings stage, to say that these claimed
techniques, among others, were well-known or
conventional as a matter of law.
Appellees distinguish BASCOM by arguing that
the asserted claims simply “replace a USB or similar
cable with Bluetooth.” Appellees’ Br. at 33. But even
assuming that Bluetooth was conventional at the
time of these inventions, implementing a well-known
technique with particular devices in a specific
combination, like the two-device structure here, can
be inventive. Cf. Richdel, Inc. v. Sunspool Corp., 714
F.2d 1573, 1580 (Fed. Cir. 1983) (“Most, if not all,
inventions are combinations and mostly of old
elements.”); see also BASCOM, 827 F.3d at 1350. As
noted above, Cellspin specifically alleged that its
implementation of Bluetooth, using a two-step, twodevice structure, was inventive. J.A. 2290–2294. The
same is true for the claimed combination of steps—
sharing data only after a certain step is performed,

26a
using HTTP at another particular step, etc. Id.
Cellspin did more than simply label these techniques
as inventive. It pointed to evidence suggesting that
these techniques had not been implemented in a
similar way. See, e.g., J.A. 2289 (“It was not until
2009 or later when the leading tech companies, such
as Facebook and Google, started releasing HTTP
APIs for developers to utilize a HTTP transfer
protocol for mobile devices.”). This sufficiently alleges
that Cellspin has claimed significantly more than the
idea of capturing, transferring, or publishing data.
Appellees argue that the limitations relied on by
Cellspin “amount to nothing more than minor
variations in the technological environment in which
the abstract ideas are implemented.” Appellees’ Br.
at 37–38. We disagree. In Electric Power, we
explained that merely applying an abstract idea to a
“particular
technological
environment,”
there
“power-grid monitoring,” was not enough to
transform the underlying idea into something patent
eligible. 830 F.3d at 1354–55. But claims that use an
environment—a computer, a mobile phone, etc.—to
do significantly more than simply carry out an
abstract idea are patent eligible. Id. at 1355 (noting
that the limitations there did not “differentiate” the
claims from the underlying mental process).
Cellspin’s asserted claims do precisely that, at least
based on the allegations we must accept as true at
this stage. In particular, they recite a specific,
plausibly inventive way of arranging devices and
using protocols rather than the general idea of
capturing, transferring, and publishing data.
Accordingly, the district court erred by granting
the motions to dismiss.

27a
B. Attorney Fees
The district court’s error in granting the motions to
dismiss necessitates vacatur of its attorney fees
award. See, e.g., Mankes v. Vivid Seats Ltd., 822 F.3d
1302, 1312 (Fed. Cir. 2016) (“Because we vacate and
remand judgment on the pleadings and no other
relief runs in Vivid Seats’ favor, Vivid Seats is no
longer the ‘prevailing party’ under § 285.”). In the
interest of judicial economy, however, we also
address certain errors in the district court’s attorney
fees analysis that could remain issues on remand.
See TEK Glob., S.R.L. v. Sealant Sys. Int’l, Inc., 920
F.3d 777, 780 (Fed. Cir. 2019).
According to the district court, Cellspin should
have filed a “test case” before asserting its patents
here. Attorney Fees Order, 2018 WL 3328164, at *4.
But patents granted by the Patent and Trademark
Office are presumptively valid. Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91, 100 (2011) (citing 35 U.S.C.
§ 282). This presumption reflects the fact that the
Patent and Trademark Office has already examined
whether the patent satisfies “the prerequisites for
issuance of a patent,” including § 101. Id. at 95–96.
While an alleged infringer “may attempt to prove
that the patent never should have issued in the first
place,” i.e., challenge its validity, the alleged
infringer must prove that the patent does not satisfy
these prerequisites before the patent loses its
presumption of validity. Id. at 96–97. To the extent
the district court departed from this principle by
concluding that issued patents are presumed valid
but not presumed patent eligible, it was wrong to do
so. See Berkheimer, 881 F.3d at 1368 (“Any fact, such
as [whether a claim element or combination is well-

28a
understood or routine], that is pertinent to the
invalidity conclusion must be proven by clear and
convincing evidence.”); see also Microsoft, 564 U.S. at
100.
The district court also faulted Cellspin for
amending its complaint just a few days before the
scheduled hearing on Appellees’ motions to dismiss.
Attorney Fees Order, 2018 WL 3328164, at *3. But
Cellspin’s amendment was timely based on a
scheduling order entered by the district court just
three days before Cellspin’s amendment. J.A. 2264.
In fact, the order allowed the parties to amend their
pleadings through June 5, 2018 “without the need for
leave of Court.” Id. Cellspin’s decision to amend was
also justified in light of Berkheimer and Aatrix,
decided just a few weeks earlier. Cf. Aatrix, 882 F.3d
at 1128 (“Aatrix is entitled to file its proposed second
amended complaint . . . .”). The district court’s
finding that the timing of Cellspin’s amendment
contributed to making the case exceptional is
therefore clearly erroneous.
III. CONCLUSION
The district court erred by not accepting Cellspin’s
well-pleaded allegations as true with respect to
whether its patents capture, transfer, and publish
data in a way that is plausibly inventive. And,
accepting those allegations as true, we cannot say
that the asserted claims are ineligible under § 101 as
a matter of law. The district court erred in holding
otherwise. We therefore vacate the district court’s
dismissal and vacate its subsequent award of
attorney fees. We remand this case for further
proceedings consistent with this opinion.

29a
VACATED AND REMANDED
COSTS
No costs.

30a
APPENDIX B
_________
UNITED STATES DISTRICT COURT,
NORTHERN DISTRICT OF CALIFORNIA
_________
CELLSPIN SOFT, INC.,
Plaintiff,
v.
FITBIT, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
MOOV, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
NIKE, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
FOSSIL GROUP, INC. ET AL.,
Defendants.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
CANON U.S.A., INC.,
Defendant.

31a
CELLSPIN SOFT, INC.,
Plaintiff,
v.
GOPRO, INC.,
_________

Defendant.

Case No.: 4:17-CV-5928-YGR, Case No.: 4:17-CV5929-YGR, Case No.: 4:17-CV-5931-YGR, Case No.:
4:17-CV-5933-YGR, Case No.: 4:17-CV-5938-YGR,
Case No.: 4:17-CV-5939-YGR
_________
Signed 07/06/2018
_________
Attorneys and Law Firms
John J. Edmonds, Collins Edmonds & Schlather,
PLLC, Los Angeles, CA, Brandon Gregory Moore,
Shea Neal Palavan, Collins Edmonds Schlather
PLLC, Houston, TX, for Plaintiff.
Anjali Moorthy, David Shane Brun, Rachel Melissa
Walsh, Goodwin Procter LLP, San Francisco, CA,
Indra Neel Chatterjee, Goodwin Procter LLP,
Redwood City, CA, for Defendant.

ORDER GRANTING IN PART
MOTIONS FOR ATTORNEY’S FEES
RE: Dkt. No. 85
RE: Dkt. No. 73
RE: Dkt. No. 92
RE: Dkt. No. 79
RE: Dkt. No. 76

32a
Yvonne Gonzalez Rogers, United States District
Judge
On April 3, 2018, the Court granted an omnibus
motion to dismiss filed by defendants Fitbit, Inc.
(“Fitbit”); Moov, Inc. (“Moov”); Nike, Inc. (“Nike”);
Fossil Group, Inc. and Misfit, Inc. (collectively,
“Fossil”); Garmin International, Inc. (“Garmin”);
Cannon U.S.A., Inc. (“Cannon”); GoPro, Inc.
(“GoPro”); Panasonic Corporation of America
(“Panasonic”); and JK imagining LTD (“JK”)
(collectively, “Omnibus Defendants”) on the grounds
that the patents asserted by plaintiff Cellspin Soft,
Inc. (“Cellspin”) are not patent eligible under 35
U.S.C. Section 101. (Dkt. No. 79 (“MTD Order”).)1
Thereafter, defendants Fitbit, Moov, Nike, Fossil,
Canon,
and
GoPro
(collectively,
“Moving
Defendants”) filed six separate motions for attorney’s
fees pursuant to 35 U.S.C. Section 285 on the
grounds that Cellspin’s actions for patent
infringement are “exceptional” under the same. (see
e.g., Dkt. No. 85 (“Motion”).) 2 Moving Defendants
seek fees totaling $881,051.56. Cellspin opposes the
motions. (Dkt. No. 91 (“Opp.”).)

1

Unless stated otherwise, all citations to docket entries refer
to Cellspin Soft Inc. v. Fitbit, Inc., 17-cv-05928-YGR.
2

See also Case No. 17-cv-3829, Dkt. No. 73 (“Moov Motion”);
Case No. 17-cv-5931, Dkt. No. 73 (“Nike Motion”); Case No. 17cv-5933, Dkt. No. 92 (“Fossil Motion”); Case No. 17-cv-5938,
Dkt. No. 79 (“Canon Motion”); Case No. 17-cv-5939, Dkt. No. 76
(“GoPro Motion”); (collectively, “Fees Motions”). The Court
notes that the Fees Motions are nearly identical in substance
and form.

33a
Having carefully reviewed the pleadings, the
papers submitted, oral arguments at the hearing
held on June 12, 2018, and the underlying record,
and for the reasons set forth more fully below, the
Court GRANTS IN PART the Moving Defendants’
motions for attorney’s fees.3
I. LITIGATION HISTORY
Cellspin brought fourteen patent infringement
actions alleging that each defendant infringed one or
more of Cellspin’s patents, namely U.S. Patent Nos.
8,738,794; 8,892,752; 9,749,847; and 9,258,698
(collectively, “Asserted Patents”).4 (See, e.g., Dkt. No.
1 (“Compl.”).) On December 5, 2017, the Court
granted Cellspin’s motion to relate the fourteen
actions. (Dkt. No. 18.)

3

The Court notes that defendant Fossil did not submit a
declaration regarding any meet and confer with Cellspin’s
counsel, as required by Civil Local Rule 54-4. (See Case No. 17cv-5933 Dkt. No. 92-2.) The Court cautions that Fossil’s failure
to comply with the Local Rules constitutes a basis for denial of
its motion and advises counsel to observe all Civil Local Rules,
as well as this Court’s Standing Order in Civil Cases, in the
future.
4

Cellspin’s patent infringement action against Eastman
Kodak Company was dismissed without prejudice on December
3, 2017. (Cellspin Soft v. Eastman Kodak Company, 17-cv-5940YGR, Dkt. Nos. 14, 15.) Plaintiff’s action against TomTom, Inc.
and TomTom North America was dismissed without prejudice
on January 25, 2018. (Cellspin Soft v. TomTom, Inc., et al., 17cv-5937-YGR, Dkt. Nos. 46, 47.) The following defendants
remain: Adidas America, Inc.; Under Armor, Inc.; and Nikon
Americas, Inc. and Nikon, Inc. All three remaining defendants
have filed answers and the cases are stayed pending appeals of
the other cases referenced here.

34a
In their January 16, 2018 motion to dismiss,
Omnibus Defendants alleged that Cellspin’s claims
of infringement were invalid because the Asserted
Patents were not patent-eligible under Section 101.
(Dkt. No. 31, (“MTD”).) Specifically, Omnibus
Defendants argued that Cellspin’s claims were (i)
directed to the abstract concept of acquiring data
using a “data capture device,” transferring data over
a connection to a mobile device, and publishing the
data to a website and (ii) recite only generic
computer technology to carry out the abstract idea,
technology which the specification describes as
“pervasive [and] flexible,” such as a “ubiquitous
mobile phone,” “fairly widespread” personal digital
assistants, and “general purpose computers and
computing devices.” (Id. at 11.)
Cellspin filed an opposition to the Omnibus
Defendants’ motion on January 30, 2018, arguing
that the claims of the Asserted Patents are not
abstract under step one of the test articulated by the
Supreme Court in Alice Corp. Pty. Ltd. v. CLS Bank
Int’l, 134 S. Ct. 2347 (2014) because the claims
described
“specific
improvements
comprising,
acquiring, transferring, and publishing new-data on
the Internet,” including, a purported improvement in
battery consumption, an elimination of the need for
“bulky” hardware, and a purported improvement in
the order or timing of the Bluetooth or wireless
pairing. (Dkt. No. 38 at 8, 10, 15.) On February 16,
2018, Cellspin filed a notice of supplemental
authority arguing that the Federal Circuit’s recent
decisions in Aatrix Software, Inv. v. Green Shades
Software Inc., 882 F.3d 1121 (Fed. Cir. 2018) and
Berkheimer v. HP Inc., 881 F.3d 1360 (Fed. Cir.

35a
2018) applied to the instant case because “factual
disputes exist” regarding whether “the claimed
features
are
well-understood,
routine,
and
conventional.” (Dkt. No. 48 at 3.)
On March 2, 2018, Cellspin filed an amended
complaint incorporating a new section titled “The
Patents-in-Suit,” which contained the arguments
regarding improvements that plaintiff had asserted
in its opposition. (Dkt. No. 58 at 3-9.) Four days
later, on March 6, 2018, the Court held a hearing on
the Omnibus Defendants’ motion to dismiss. (Dkt.
No. 68.) Following the hearing, and at the direction
of the Court, the Omnibus Defendants filed a
supplemental brief in support of their motion to
dismiss addressing the additional information
asserted by Cellspin in its amended complaint. (Dkt.
No. 64.) Cellspin then filed a response to the
Omnibus Defendants’ supplemental brief without
first seeking leave from the Court. (Dkt. No. 73.)
On April 3, 3018, the Court granted the Omnibus
Defendants’ motions to dismiss. (MTD Order.) In its
Alice step-one analysis, the Court rejected Cellspin’s
argument that the Asserted Patents describe specific
improvements in acquiring, transferring, and
publishing data on the Internet, stating that
“plaintiff fails to identify these alleged specific
improvements or otherwise explain how these
improvements result in enhanced ‘computer
capabilities’ rather than a process that qualifies as
an abstract idea for which computers are invoked
merely as a tool.” (Id. at 12 (internal quotation
marks omitted).) In its Alice step-two analysis, the
Court found that “the asserted claims merely provide
a generic environment in which to carry out the

36a
abstract ideas of acquiring, transferring, and
publishing data,” and thus “fail to supply an
inventive concept sufficient to transform the
underlying abstract idea into patentable subject
matter.” (Id. at 15.) Following its order on the
Omnibus Defendants’ motion to dismiss, the Court
entered judgment for the Omnibus Defendants. (See
e.g., Dkt. No. 81).
II. DISCUSSION
A. Finding of an Exceptional Case
Section 285 of the Patent Act provides that “[t]he
court in exceptional cases may award reasonable
attorney fees to the prevailing party.” 35 U.S.C.
§ 285. An “ ‘exceptional’ case is simply one that
stands out from others with respect to the
substantive strength of a party’s litigating position
(considering both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.” Octane Fitness v. Icon Health &
Fitness, 134 S. Ct. 1749, 1756 (2014). “Section 285
demands a simple discretionary inquiry; it imposes
no specific evidentiary burden, much less a high
one.” Id. at 1758. Where a moving party can show
exceptionality by a preponderance of the evidence,
the court may award attorney’s fees. Id.
“There is no precise rule or formula for making
these determinations.” Id. at 1756. A court may
exercise discretion to determine whether a case is
“exceptional,” taking into account the totality of the
circumstances, including such factors as evidence of
bad faith litigation, objectively unreasonable
positions, or improper conduct. See id. at 1756-57.

37a
“[A] case presenting either subjective bad faith or
exceptionally meritless claims may sufficiently set
itself apart from mine-run cases to warrant a fee
award.” Id. at 1757. See also Inventor Holdings, LLC
v. Bed Bath & Beyond, Inc., 876 F.3d 1372, 1377-78
(Fed. Cir. 2017) (concluding “that the district court
acted within the scope of its discretion in finding this
case to be exceptional based on the weakness of
[plaintiff’s] § 101 arguments and the need to deter
similarly weak arguments in the future”). However,
when determining whether a case is exceptional
under Section 285, the court must examine the
“substantive strength” of the party’s position, “not
the correctness or eventual success of [that] position.”
SFA Sys., LLC v. Newegg, Inc., 793 F.3d 1344, 1348
(Fed. Cir. 2015) (emphasis supplied). The question is
whether every grant of a Section 101 motion to
dismiss warrants an award of attorney’s fees.
As in Inventor Holdings, the claims at issue here
are “manifestly directed to an abstract idea” and “the
only components disclosed in the specification for
implementing the asserted method claims are
unambiguously ... conventional.” See 876 F.3d at
1378. As the Court noted in its order granting the
Omnibus Defendants’ motion to dismiss, the
Asserted Patents are directed at the abstract idea of
a method of acquiring, transferring, and publishing
data and/or multimedia content. (MTD Order at 11
(citing Electric Power Group, LLC v. Alstom S.A., 830
F.3d 1350, 1353 (Fed. Cir. 2016) ).) Although
Cellspin
pointed
to
purported
“specific
improvements” in computer functionality, the
Asserted Patents “fail[ ] to provide any technical
details for the tangible components” and “instead

38a
predominantly describe[ ] the system and methods in
purely functional terms” using conventional
computer components and existing technology. (Id. at
13 (citing In re TLI Comm’ns LLC Patent Litig., 823
F.3d 607, 612 (Fed. Cir. 2016) ).)
Additionally, and unlike the claims brought in
Inventor Holdings, Cellspin filed its complaint in the
face of significant post-Alice precedent. See Inventor
Holdings, 876 F.3d at 1379. Here, Cellspin chose to
file more than a dozen lawsuits asserting four
ineligible patents and, in so filing, ignored
substantial precedent dismissing analogous data
manipulation patent claims. See, e.g., In re TLI, 823
F.3d at 613 (finding that a device used for recording
a digital image, transferring the digital image from
the recording device to a storage device, and
administering the digital image in the storage device
claims no more than the abstract idea of classifying
and storing digital images in an organized manner
and is thus patent-ineligible).5
Cellspin hinges its opposition on a lack-of-bad-faith
defense. (Opp. at 6.) However, a court may find a
case exceptional and award fees in the event of
5

See also Two-Way Media Ltd. v. Comcast Cable Comm’cns,
LLC, 874 F.3d 1329, 1337-39 (Fed. Cir. 2017); FairWarning IP,
LLC v. Iatric Sys., Inc., 839 F.3d 1089, 1093-95 (Fed. Cir. 2016);
Secured Mail Solutions LLC v. Universal Wilde, Inc., 873 F.3d
905, 907-08 (Fed. Cir. 2017); Intellectual Ventures I LLC v.
Capital One Financial Corp., 850 F.3d 1332, 1341 (Fed. Cir.
2017); West View Research, LLC v. Audi AG, 685 Fed.Appx. 923,
926 (Fed. Cir. 2017); EasyWeb Innovations, LLC v. Twitter, Inc.,
689 Fed.Appx. 969, 971 (Fed. Cir. 2017); Content Extraction and
Transmission LLC v. Wells Fargo Bank, National Ass’n, 776
F.3d 1343, 1348 (Fed. Cir. 2014).

39a
“either subjective bad faith or exceptionally meritless
claims....” Octane Fitness, 134 S. Ct. at 1757
(emphasis supplied). Moreover, Cellspin litigated its
exceptionally meritless claims aggressively. Plaintiff
did not agree to stay discovery pending resolution of
Omnibus Defendants’ Section 101 motion until after
the hearing on that motion. (See Dkt. No. 67.)
Cellspin filed an amended complaint only three days
prior to the hearing on the Omnibus Defendants’
then-pending Section 101 motion to dismiss. (Dkt.
No. 58.) While this conduct may not amount to bad
faith litigation, it does contribute to the totality of
the circumstances weighing in favor of a fee award.
See Octane Fitness, 134 S. Ct. at 1756-57.
Cellspin also argues that in filing the instant
lawsuits, it reasonably relied on the presumption of
validity following the issuances of the Asserted
Patents, especially the two most recent patents.
(Opp. at 7.) Although issued patents are presumed
valid, they are not presumed eligible under Section
101. See Ultramerical, Inc. v. Hulu, LLC, 772 F.3d
709, 721 (Fed. Cir. 2014) (Mayer, J., concurring)
(noting that although the Supreme Court has
reviewed several Section 101 cases recently, it has
“never
mentioned—much
less
applied—any
presumption of eligibility. The reasonable inference,
therefore, is that while a presumption of validity
attaches in many context, no equivalent presumption
of eligibility applies in the section 101 calculus”)
(citation omitted); see also OpenTV, Inc. v. Apple,
Inc., 2015 WL 1535328, at *3 (N.D. Cal. Apr. 6,
2015).
Further, plaintiff argues that it should not be
forced to adjudicate the validity of its own patent and

40a
can rely on the courts to serve in that role. (Opp. at
5-6.) Cellspin cannot hide behind its own refusal to
analyze its patents critically. Lawyers routinely
evaluate the viability of contracts and strength of
claims and thereupon counsel clients to act
responsibly. To do otherwise unnecessarily burdens
to the courts and inflicts significant costs to the
opposing parties. Given the patents at issue here,
Cellspin could have litigated a test case but instead
chose to file and pursue aggressively fourteen
lawsuits simultaneously. It could have waited to
issue overarching discovery requests but did not. 6
(See Dkt. No. 65 at 4 (noting that on January 25,
2018, Cellspin served initial sets of requests for
production and interrogatories on defendants).)
Accordingly, the Court finds that the instant
matter qualifies as an exceptional case within the
meaning of Section 285.
B. Award of Fees
Having found that this is an exceptional case
within the meaning of Section 285, the Court must
now consider whether the requested fees are

6

During the hearing on June, 12, 2018, Cellspin suggested
that in declining defendants’ January 22, 2018 request to stay
discovery until after the Court had ruled on Omnibus
Defendants’ then-pending motion to dismiss (Dkt. No. 34), the
Court sanctioned Cellspin’s discovery requests. It did not. The
Court merely allowed the parties to proceed in accordance with
the Local Rules given the representations that the defendants
intended to lodge objections. (See Dkt. No. 44 at 5.) Parties
should not assume that busy district courts have pre-decided
issues before briefing and oral argument are complete. (See id.
(filed February 2, 2018).)

41a
reasonable. See Forest Labs., Inc. v. Abbott Labs.,
339 F.3d 1324, 1327-28 (Fed. Cir. 2003). Moving
Defendants seek fees in the following amounts: Fitbit
—$60,057.94 (Fitbit Motion at 15.); Moov—
$47,430.00 (Moov Motion at 15.); Nike—$202,614.92
(Nike Motion at 13); Fossil—$293,423.00 (Fossil
Motion at 16); Canon—$213,721.50 (Canon Motion at
16); GoPro—$63,804.20 (Dkt. No. 85 ¶ 5).7 Three of
the Moving Defendants also seek additional fees
incurred through the conclusion of the instant
motion. (See e.g., Fitbit Motion at 15.)8
An attorney’s fee award under Section 285 must
bear some relation to the extent of the conduct
responsible for the court’s finding of exceptionality.
See Cartner v. Almo Grp., Inc., 561 Fed.Appx. 958,
963 (Fed. Cir. 2014). Cellspin argues in its
Opposition that to the extent that the Court
determines an award of attorney’s fees is
appropriate, that award should “extend no further
tha[n] the fees incurred in connection with briefing
and arguing Defendants’ Omnibus § 101 Motion.”
(Opp. at 18.) However, as described in detail above,
7

Cellspin indicates in its Opposition that the Moving
Defendants also seek costs. (Opp. at 19.) However, the Court
notes that the Moving Defendant’s motions and supporting
declarations do not include a request for costs and mention
costs only in the context of a section heading, i.e. “Total Costs
and Fees to Date.” (See e.g., Fitbit Motion; see also (Dkt. No. 852 (“Fitbit Decl.”) ¶ 16.))
8

Specifically, Fitbit, Moov, and Canon seek additional fees as
follows: Fitbit—$5,545.00 (Fitbit Decl. ¶ 17); Moov—$6,530.00
(Case No. 17-cv-3829, Dkt. No. 73-2 ¶ 15); Canon—not yet
determined as time records were not yet prepared at the time of
filing (Case No. 17-cv-5938, Dkt. No. 79-1 ¶ 4).

42a
the exceptionally meritless nature of this case
extends well beyond the Omnibus Defendants
Section 101 motion to dismiss and applies to
Cellspin’s decision to bring these actions in the first
place. Nonetheless, the Court finds that the amounts
requested by defendants Nike, Fossil, and Canon
excessive.
Based upon its review of the parties’ records, and
with the exception of Nike who played the lead role
in drafting Omnibus Defendants’ motion to dismiss
and reply and also argued the motion before the
Court (Hearing on June 12, 2018), an award of
Section 285 attorney’s fees shall not exceed $100,000.
Accordingly, the Court GRANTS IN PART
Moving Defendants’ motions for attorney’s fees under
Section 285 as follows:
1. for defendant Fitbit, the Court grants the
requested amount of $65,602.94;
2. for defendant Moov, the Court grants the
requested amount of $53,960;
3. for defendant Nike, the Court grants a fee
award of $180,000;9
4. for defendant Fossil, the Court grants a fee
award of $100,000;10
9

Although the Court finds the fee of $202,614.92 requested
by Nike to be excessive, the Court also finds persuasive Nike’s
argument during the June 12, 2018 hearing on the instant
motion (“Hearing”) that their counsel took the lead role in
briefing and arguing the Omnibus Defendants’ motion to
dismiss. Therefore, the Court caps Nike’s fee request at
$180,000.

43a
5. for defendant Cannon, the Court grants a fee
award of $100,000;11
6. for defendant GoPro, the Court grants the
requested amount of $63,804.20.
III. CONCLUSION
For the foregoing reasons, the Court GRANTS IN
PART Moving Defendants’ motions for attorney’s
fees in the amounts articulated above.
This Order Terminates Docket Number 85.12

10

The Court finds the fee of $293,423.00 requested by Fossil,
which is the highest amount requested by any the Moving
Defendants, to be excessive. During the Hearing, counsel for
Fossil represented that the fee amount Fossil requests is a
result of the fact that Fossil worked on and filed a motion to
dismiss on its own prior to the omnibus filing. However,
according the billing records submitted to the Court for in
camera review, (see Dkt. No. 100), legal work done prior to the
Court’s December 22, 2017 order directing an omnibus
submission for the Moving Defendants’ motions to dismiss
accounts for less than one-third of Fossil’s requested fees. The
Court finds this explanation insufficient and therefore caps
Fossil’s fee request at $100,000.
11

The Court finds the fee of $213,721.50 requested by Canon
to be excessive. During the Hearing, counsel for Canon pointed
to their work on multiple versions of their motion to dismiss, as
well as responding to discovery requests and conducting a
preliminary invalidity analysis, including a review Japanese
prior art, as the reason for the requested fee amount. However,
this analysis was preemptive and therefore not necessary at
this stage of the litigation. The Court finds this explanation
insufficient and therefore caps Canon’s fee request at $100,000.
12

This Order also terminates: 4:17-CV-5929-YGR, Dkt. No.
73; 4:17-CV-5931-YGR, Dkt. No. 73; 4:17-CV-5933-YGR, Dkt.

44a
IT IS SO ORDERED.

No. 92; 4:17-CV-5938-YGR, Dkt. No. 79; 4:17-CV-5939-YGR,
Dkt. No. 76.

45a
APPENDIX C
_________
UNITED STATES DISTRICT COURT,
NORTHERN DISTRICT OF CALIFORNIA,
OAKLAND DIVISION
_________
CELLSPIN SOFT, INC.,
Plaintiff,
v.
FITBIT, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
MOOV, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
NIKE, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
FOSSIL GROUP, INC. ET AL.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
GARMIN INTERNATIONAL INC. ET AL.,
Defendant.

46a
CELLSPIN SOFT, INC.,
Plaintiff,
v.
CANNON U.S.A., INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
GOPRO, INC.,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
PANASONIC CORPORATION OF NORTH AMERICA,
Defendant.
CELLSPIN SOFT, INC.,
Plaintiff,
v.
JK IMAGING, LTD.,
Defendant.
_________
Case No. 17-cv-05928-YGR, Case No. 17-cv-05929YGR, Case No. 17-cv-05931-YGR, Case No. 17-cv05933-YGR, Case No. 17-cv-05934-YGR, Case No.
17-cv-05938-YGR, Case No. 17-cv-05939-YGR, Case
No. 17-cv-05941-YGR, Case No. 17-cv-06881-YGR
_________
Signed April 3, 2018
_________

47a
Attorneys and Law Firms
John J. Edmonds, Collins Edmonds & Schlather,
PLLC, Los Angeles, CA, Shea Neal Palavan, Collins
Edmonds & Schlather, PLLC, Houston, TX, for
Plaintiff.
Irfan Ahmed Lateef, Daniel C. Kiang, Knobbe
Martens Olson & Bear LLP, Irvine, CA, for
Defendant.
ORDER RE: OMNIBUS MOTION TO DISMISS;
MOTION FOR JUDGMENT ON THE
PLEADINGS
Yvonne Gonzalez Rogers, United States District
Court Judge
Plaintiff Cellspin Soft, Inc. (“Cellspin”) brings
fourteen patent infringement actions1 alleging that
each defendant infringed one or more of Cellspin’s
1

Nine actions are noted within the omnibus caption. Further,
plaintiff’s patent infringement action against Eastman Kodak
Company was dismissed without prejudice on December 3,
2017. (Cellspin Soft v. Eastman Kodak Company, 17-cv-5940YGR, Dkt. Nos. 14, 15.) Plaintiff’s action against TomTom, Inc.
and TomTom North America was dismissed without prejudice
on January 25, 2018. (Cellspin Soft v. TomTom, Inc., et al., 17cv-5937-YGR, Dkt. Nos. 46, 47.) The following defendants
remain: Fitbit, Inc. (“Fitbit”); Moov, Inc. (“Moov”); Adidas
America, Inc. (“Adidas”); Nike, Inc. (“Nike”); Under Armor, Inc.
(“Under Armor”); Fossil Group, Inc. and Misfit, Inc. (collectively
“Fossil”); Garmin International, Inc. (“Garmin”); Cannon
U.S.A., Inc. (“Cannon”); GoPro, Inc. (“GoPro”); Panasonic
Corporation of America (“Panasonic”); Nikon Americas, Inc. and
Nikon, Inc. (collectively “Nikon”); and JK imagining LTD
(“JK”). Adidas, Under Armor, and Nikon have filed answers.

48a
patents, namely U.S. Patent Nos. 8,738,794 (the
“ ’794 Patent”); 8,892,752 (the “ ’752 Patent”);
9,749,847 (the “ ’847 Patent”); and 9,258,698 (the
“ ’698 Patent”) (collectively the “Asserted Patents”).2
Cellspin asserts claims 1–4, 7, 9, 16–18 and 20–21
from the ’794 Patent; claims 1, 2, 4, 5, and 12–14
from the ’752 Patent; claims 1-3 from the ’847
Patent; and claims 1, 3–5, 7-8, 10– 13, 15–20 from
the ’698 Patent. (See, e.g., Cellspin Soft Inc. v. Fitbit,
Inc., 17-cv-05928-YGR, Dkt. No. 1, Complaint for
Infringement of U.S. Patents (“Complaint”).)3
Defendants Fitbit, Moov, Nike, Fossil, Cannon,
GoPro, Panasonic, and JK (the “Omnibus
Defendants”) have filed an omnibus motion to
dismiss plaintiff’s claims pursuant to Fed. R. Civ.
Pro. 12(b)(6) on the ground that the asserted patents
are not patent eligible under 35 U.S.C. § 101. (Dkt.
No. 31, Motion to Dismiss Cellspin Soft, Inc.’s
Complaints (“Omnibus MTD”).) Also before the Court
is defendant Garmin’s motion for judgment on the
pleadings pursuant to Rule 12(c) on the same
ground. (See Cellspin Soft Inc. v. Garmin
International, Inc., 17-cv-5934-YGR, Dkt. No. 27.)
Having carefully reviewed the pleadings, the
papers and exhibits submitted on these motions, the
parties’ arguments at the hearing held on March 6,
2018, and for the reasons set forth more fully below,
2

The ’794, ’752 and ’847 Patents are asserted against Fitbit,
Moov, Adidas, Nike, Under Armor, and Fossil; the ’698 Patent
against Canon, GoPro, Panasonic and JK; and all four against
Garmin and Nikon.
3

Unless stated otherwise all citations to docket entries refer
to Cellspin Soft Inc. v. Fitbit, Inc., 17-cv-05928-YGR.

49a
the Court GRANTS the Omnibus Defendants’
motion to dismiss Cellspin’s complaints and
GRANTS Garmin’s motion for judgment on the
pleadings.
I. PATENTS AT ISSUE
Each of the four Asserted Patents is titled
“Automatic Multimedia Upload for Publishing Data
and Multimedia Content” and recites the same
specification. (See, e.g., Cellspin Soft, Inc. v. Garmin
International, Inc., 17-cv-5934-YGR, Dkt. No. 1, Exs.
A–D at 1:1-3.) Accordingly, the Court shall first
discuss the ’794 Patent and then highlight variations
presented by the ’752, ’847, and ’698 Patents,
respectively.
A. The ’794 Patent
The specification for the ’794 Patent describes a
“method of utilizing a digital data capture device
[such as a digital or video camera or wearable fitness
tracker] in conjunction with a BluetoothTM enabled
mobile device for publishing data and multimedia
content on one or more websites automatically or
with minimal user intervention.” (Id. at 3:28-32.)
According to the patent, the conventional method for
publishing data and multimedia content on a website
was time-consuming required and manual user
intervention:
Typically, the user would capture an image
using a digital camera or a video camera, store
the image on a memory device of the digital
camera, and transfer the image to a computing
device such as a personal computer (PC). In
order to transfer the image to the PC, the user

50a
would transfer the image off-line to the PC,
use a cable such as a universal serial bus
(USB) or a memory stick and plug the cable
into the PC. The user would then manually
upload the image onto a website which takes
time and may be inconvenient for the user.
(’794 Patent at 1:38-47.) The ’794 Patent purports to
solve this problem by “utilizing a digital data capture
device in conjunction with a BluetoothTM (BT)
enabled mobile device” to “automatically publish[ ]
data and multi-media content on one or more
websites simultaneously.” (Id. at 1:33-36, 1:65-2:3.)
Independent Claim 1 recites:
A method for acquiring and transferring data
from a Bluetooth enabled data capture device
to one or more web services via a Bluetooth
enabled mobile device, the method comprising:
providing a software module on the Bluetooth
enabled data capture device;
providing a software module on the Bluetooth
enabled mobile device;
establishing a paired connection between the
Bluetooth enabled data capture device and the
Bluetooth enabled mobile device;
acquiring new data in the Bluetooth enabled
data capture device, wherein new data is data
acquired after the paired connection is
established;
detecting and signaling the new data for
transfer to the Bluetooth enabled mobile

51a
device, wherein detecting and signaling the
new data for transfer comprises:
determining the existence of new data for
transfer, by the software module on the
Bluetooth enabled data capture device; and
sending a data signal to the Bluetooth
enabled mobile device, corresponding to
existence of new data, by the software
module on the Bluetooth enabled data
capture device automatically, over the
established paired Bluetooth connection,
wherein the software module on the
Bluetooth enabled mobile device listens for
the data signal sent from the Bluetooth
enabled data capture device, wherein if
permitted by the software module on the
Bluetooth enabled data capture device, the
data signal sent to the Bluetooth enabled
mobile device comprises a data signal and
one or more portions of the new data;
transferring the new data from the Bluetooth
enabled data capture device to the Bluetooth
enabled mobile device automatically over the
paired Bluetooth connection by the software
module on the Bluetooth enabled data capture
device;
receiving, at the Bluetooth enabled mobile
device, the new data from the Bluetooth
enabled data capture device;
applying, using the software module on the
Bluetooth enabled mobile device, a user
identifier to the new data for each destination

52a
web service, wherein each user identifier
uniquely identifies a particular user of the web
service;
transferring the new data received by the
Bluetooth enabled mobile device along with a
user identifier to the one or more web services,
using the software module on the Bluetooth
enabled mobile device;
receiving, at the one or more web services, the
new data and user identifier from the
Bluetooth enabled mobile device, wherein the
one or more web services receive the
transferred new data corresponding to a user
identifier; and
making available, at the one or more web
services, the new data received from the
Bluetooth enabled mobile device for public or
private consumption over the internet,
wherein one or more portions of the new data
correspond to a particular user identifier.
(Id. at 11:48-12:39 (emphasis supplied).) Six asserted
claims (2 through 5, 7, and 9) depend on independent
claim 1 and add further limitations such as when the
“data signal and the new data are transferred from
the Bluetooth enabled data capture device to the
Bluetooth enabled mobile device simultaneously[;]”
“Bluetooth capability is provided internally in the
Bluetooth enabled data capture device[;]” and the
“Bluetooth enabled mobile device comprises one or
more of audio data, video data, image data, text data,
or digital data.” (Id. at 12:39-50 (Claim 2), 13:48-50
(Claim 7), 13:55-58 (Claim 9).)

53a
Additionally, the ’794 Patent contains two other
independent claims, namely claims 6 and 16. 4
Asserted independent claim 16 of the ’794 Patent is
directed to transferring content from an “Internet
incapable data capture device to an Internet server
via separate Internet capable mobile device by
polling the Bluetooth enabled data capture device for
newly captured data within an already paired and
Bluetooth connection between the data capture
device and the mobile device.” (Dkt No. 38,
Opposition at 20-21 (citing ’794 Patent at 14:14-64)
(emphasis supplied).) Claim 16 has five dependent
claims and adds further limitations such as when the
“Bluetooth capability is provided internally in the
Bluetooth enabled data capture device[;]” “Bluetooth
capability is provided to the Bluetooth enabled data
capture device by an external Bluetooth module[;]”
and “the new data transferred from the Bluetooth
enabled mobile device to one or more web services is
data associated with new data.” (’794 Patent at
14:65-15:14.)
B. The ’752 Patent
Independent Claim 1 of the ’752 Patent is directed
to method of transferring data from an internet
incapable data capture device to an internet server
via an intermediary internet capable mobile device
by pushing event notifications within an already
paired and encrypted Bluetooth connection. (See ’752
patent at 11:48-59.) Unlike the ’794 Patent, the ’752
Patent recites the use of a “secured” Bluetooth

4

Independent claim 6 is not asserted in the above-captioned
matters.

54a
connection with a data encryption step. 5 (Id. at
11:51-59, 12:13-16).
C. The ’847 Patent
Independent asserted Claim 1 of the ’847 Patent is
directed to a method and system of utilizing an
encrypted, paired Bluetooth connection to transfer
data between an internet incapable data capture
device and a separate internet capable mobile device.
Unlike the ’794 Patent, the ’847 Patent recites the
transfer of data by pushing event notifications within
an already paired and encrypted Bluetooth
connection. (See ’847 Patent at 12:13-68.) Claim 1 of
the ’847 Patent recites the use of generic computer
hardware and software, namely a “Bluetooth enabled
cellular phone,” “first processor,” and “mobile
application.” (Id. at 12:12-13:3).
D. The ’698 Patent
Independent asserted claim 5 of the ’698 Patent is
directed to system for using an encrypted paired
short-range wireless connection between an internet
incapable digital camera device and a separate
internet capable mobile device wherein the acquired
data is transferred to the cellular phone in response
to a request initiated by the software application on
the cellular phone over an already paired and
encrypted short-range wireless connection. (See ’698
Patent at 11:56-12:25.) Independent asserted claim 1
of the ’698 patent is directed to a method of network

5

At the hearing held on March 6, 2018, plaintiff’s counsel
conceded that use of an encrypted Bluetooth connection to
transfer data was conventional, well known, and not inventive.

55a
architecture used to implement the system recited in
claim 5.
Differences between the ’698 Patent and the ’794
Patent include the ’698 Patent’s utilization of a
“digital camera device” instead of a “data capture
device[;]” “cellular device” instead of a “mobile
device[;]” and “short-range wireless connection”
instead of “Bluetooth” connection. (Id., at 12:56-67.)
II. LEGAL FRAMEWORK
A. Patent Eligibility Under § 101
The scope of subject matter eligible for patent
protection is defined in Section 101 of the Patent Act:
“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the
conditions and requirements of this title.” 35 U.S.C.
§ 101. The Supreme Court has “long held that this
provision contains an important implicit exception:
Laws of nature, natural phenomena, and abstract
ideas are not patentable.” Alice Corp. Pty. v. CLS
Bank Int’l, ––– U.S. ––––, 134 S.Ct. 2347, 2354, 189
L.Ed.2d 296 (2014) (quoting Ass’n for Molecular
Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 133
S.Ct. 2107, 2116, 186 L.Ed.2d 124 (2013) ). In
applying this exception, courts “must distinguish
between patents that claim the building blocks of
human ingenuity and those that integrate the
building blocks into something more.” Alice, 134
S.Ct. at 2354 (internal quotations and alterations
omitted); see also Mayo Collaborative Servs. v.

56a
Prometheus Labs., Inc., 566 U.S. 66, 132 S.Ct. 1289,
1301, 182 L.Ed.2d 321 (2012).
“The Supreme Court, setting up a two-stage
framework, has held that a claim falls outside § 101
where (1) it is ‘directed to’ a patent-ineligible
concept, i.e., a law of nature, natural phenomenon, or
abstract idea, and (2), if so, the particular elements
of the claim, considered both individually and ‘as an
ordered combination, do not add enough to transform
the nature of the claim into a patent-eligible
application.’ ” Electric Power Group, LLC v. Alstom
S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016) (quoting
Alice, 134 S.Ct. at 2355). “The Supreme Court’s
formulation makes clear that the first-stage filter is
a meaningful one, sometimes ending the § 101
inquiry.” Id. (citing Alice, 134 S.Ct. at 2355.) “At the
same time, the two stages are plainly related” in that
they “involve overlapping scrutiny of the content of
the claims ... [and] there can be close questions about
when the inquiry should proceed from the first stage
to the second.” Id. (citing Enfish, LLC v. Microsoft
Corp., 822 F.3d 1327, 1339 (Fed. Cir. 2016) ). The
burden of establishing invalidity rests on the
movant. See Microsoft Corp. v. i4i Ltd. P’ship, 564
U.S. 91, 131 S.Ct. 2238, 2245, 180 L.Ed.2d 131
(2011) (citing 35 U.S.C.A. § 282).
Thus, in considering whether claims are patentineligible, the court must first determine whether
the claims are directed to a patent-ineligible concept,
such as an abstract idea (the “Stage-One Inquiry”).
See Diamond v. Chakrabarty, 447 U.S. 303, 309, 100
S.Ct. 2204, 65 L.Ed.2d 144 (1980). “A principle, in
the abstract, is a fundamental truth ... [which]
cannot be patented.” Gottschalk v. Benson, 409 U.S.

57a
63, 67, 93 S.Ct. 253, 34 L.Ed.2d 273 (1972) (internal
citations and quotations omitted). “Phenomena of
nature, though just discovered, mental processes,
and abstract intellectual concepts are not patentable,
as they are the basic tools of scientific and
technological work.” Id. To determine whether
patent claims are directed to an abstract idea, the
Court must “distill[ ] the gist of the claim[s].”6 Open
Text S.A. v. Box, Inc., 78 F.Supp.3d 1043, 1046 (N.D.
Cal. 2015)(citing Bilski v. Kappos, 561 U.S. 593, 61112, 130 S.Ct. 3218, 177 L.Ed.2d 792 (2010) ). A
“claim directed to an abstract idea does not move
into section 101 eligibility territory by ‘merely
requir[ing] generic computer implementation.’ ”
buySAFE, Inc. v. Google, Inc., 765 F.3d 1350, 1354
(Fed. Cir. 2014) (alteration in original) (citing Alice,
134 S.Ct. at 2355).
If claims are directed to an abstract idea, the court
must then consider whether the claims contain a
sufficient “inventive concept” such that “the patent
in practice amounts to significantly more than a
patent upon the [ineligible concept] itself” (the
“Stage-Two Inquiry”). Alice, 134 S.Ct. at 2355
(quoting Mayo, 132 S.Ct. at 1294); see also DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245,
1255 (Fed. Cir. 2014) (“Distinguishing between
claims that recite a patent-eligible invention and
claims that add too little to a patent-ineligible
6

On the other hand, courts must be careful not to
oversimplify claims because “[a]t some level, all inventions ...
embody, use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Alice, 134 S.Ct. at 2354; see also
Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288,
1299 (Fed. Cir. 2016).

58a
abstract concept can be difficult, as the line
separating the two is not always clear.”). “For the
role of a computer in a computer-implemented
invention to be deemed meaningful in the context of
this analysis, it must involve more than performance
of well-understood, routine, [and] conventional
activities previously known to the industry.” Content
Extraction & Transmission LLC v. Wells Fargo
Bank, Nat. Ass’n, 776 F.3d 1343, 1347-48 (Fed. Cir.
2014) (alteration in original) (internal quotations and
citations omitted). Further, claims must be “directed
to a ‘specific means or method’ for improving
technology” and not “simply directed to an abstract
end-result.” RecogniCorp, LLC v. Nintendo Co., Ltd.,
855 F.3d 1322, 1326 (Fed. Cir. 2017). For example,
“when a claim directed to an abstract idea ‘contains
no restriction on how the result is accomplished ...
[and] [t]he mechanism ... is not described, although
this is stated to be the essential invention’ ” then the
claim is not patent-eligible. Intellectual Ventures I
LLC v. Symantec Corp., 838 F.3d 1307, 1316 (Fed.
Cir. 2016) (quoting Internet Patents Corp. v. Active
Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015) ).
B. Motion to Dismiss
Pursuant to Rule 12(b)(6), a complaint may be
dismissed for failure to state a claim upon which
relief may be granted. Dismissal for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6)
is proper if there is a “lack of a cognizable legal
theory or the absence of sufficient facts alleged under
a cognizable legal theory.” Conservation Force v.
Salazar, 646 F.3d 1240, 1242 (9th Cir. 2011) (citing
Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699
(9th Cir. 1988) ). The complaint must plead “enough

59a
facts to state a claim [for] relief that is plausible on
its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007). A claim
is plausible on its face “when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009). If
the facts alleged do not support a reasonable
inference of liability, stronger than a mere
possibility, the claim must be dismissed. Id. at 678–
79, 129 S.Ct. 1937. Mere “conclusory allegations of
law and unwarranted inferences are insufficient to
defeat a motion to dismiss.” Adams v. Johnson, 355
F.3d 1179, 1183 (9th Cir. 2004).
C. Judgment on the Pleadings
The standard applied to a Rule 12(c) motion for
judgment on the pleadings is “substantially
identical” to the standard applied to a motion to
dismiss under Rule 12(b)(6). Chavez v. United States,
683 F.3d 1102, 1108 (9th Cir. 2012). “[U]nder both
rules, ‘a court must determine whether the facts
alleged in the complaint, taken as true, entitle the
plaintiff to a legal remedy.’ ” Id. (quoting Brooks v.
Dunlop Mfg. Inc., 2011 WL 6140912, at *3 (N.D. Cal.
2011) ). “If the complaint fails to articulate a legally
sufficient claim, the complaint should be dismissed
or judgment granted on the pleadings.” Brooks, 2011
WL 6140912 at *3. Judgment on the pleadings is
appropriate “when there is no issue of material fact
in dispute, and the moving party is entitled to
judgment as a matter of law.” Fleming v. Pickard,
581 F.3d 922, 925 (9th Cir. 2009) (citing Heliotrope

60a
Gen., Inc. v. Ford Motor Co., 189 F.3d 971, 979 (9th
Cir. 1999) ).
If a motion for judgment on the pleadings is
granted, a “court should freely give leave [to amend]
when justice so requires.” Fed. R. Civ. P. 15(a).
However, “[a]s with a Rule 12(b)(6) motion to
dismiss, a court granting judgment on the pleadings
pursuant to Rule 12(c) should grant leave to amend
unless it is clear that amendment would be futile.”
Kelly Moore Paint Co., Inc. v. Nat’l Union Fire Ins.
Co. of Pittsburgh, PA, 2014 WL 2119996, at *3 (N.D.
Cal. 2014).
III. DISCUSSION
A. Stage-One Inquiry: Claims Directed to an
Abstract Idea?
1. Legal Standard
At the Stage-One Inquiry, the Court must
determine whether the asserted claims are directed
to an abstract idea. Courts deem claims directed to
“analyzing information by steps people go through in
their minds, or by mathematical algorithms, without
more, as essentially mental processes within the
abstract-idea category.” Electric Power, 830 F.3d at
1353 (citing In re TLI Commc’ns LLC Patent Litig.,
823 F.3d 607, 613 (Fed. Cir. 2016) ); see also Digitech
Image Techs., LLC v. Elecs. for Imaging, Inc., 758
F.3d 1344, 1351 (Fed. Cir. 2014); Bancorp Servs.,
L.L.C. v. Sun Life Assurance Co. of Canada (U.S.),
687 F.3d 1266, 1278 (Fed. Cir. 2012). The use of
“existing computers as tools in aid of processes
focused on ‘abstract ideas’ ” is not sufficient to
remove a claim from the abstract-idea category. Id.

61a
(citing Enfish, 822 F.3d at 1335–36; Alice, 134 S.Ct.
at 2358–59). For example, the Supreme Court in
Alice found that claims directed to “facilitate the
exchange of financial [information] between two
parties by using a computer system as a third-party
intermediary” were abstract. Alice, 134 S.Ct. at 2352.
The Alice Court further held that “the prohibition
against patenting abstract ideas cannot be
circumvented by attempting to limit the use of [an
abstract idea] to a particular technological
environment.” Id. at 2358 (quoting Bilski, 561 U.S.
at 610–11, 130 S.Ct. 3218); see Parker v. Flook, 437
U.S. 584, 98 S.Ct. 2522, 57 L.Ed.2d 451 (1978). 7
Similarly, in Electric Power, the Federal Circuit
“treated collecting information, including when
limited to particular content (which does not change
its character as information), as within the realm of
abstract ideas.” Electric Power, 830 F.3d at 1353. The
Electric Power Court further “recognized that merely
presenting the results of abstract processes of
collecting and analyzing information, without more
... is abstract as an ancillary part of such collection
and analysis.” Id. at 1354.
By contrast, claims which “focus[ ] not on asserted
advances in uses to which existing computer
capabilities could be put, but on a specific
improvement ... in how computers could carry out
7

Plaintiffs’ attempt to distinguish Electric Power and TLI on
the ground that the patents at issue in those cases did not
involve the use of Bluetooth technology or a paired connection
does not persuade. The mere fact that the technology at issue
here is different than the technology at issue in Electric Power
and TLI does not necessarily render those prior cases
inapposite.

62a
one of their basic functions” may fall outside the
abstract-idea category. Electric Power, 830 F.3d at
1354 (citing Enfish, 822 F.3d at 1335–36 (the
question is “whether the focus of the claims is on the
specific asserted
improvement
in
computer
capabilities” or on computers which “are invoked
merely as a tool”) ); see also Alice, 134 S.Ct. at 2358–
59. However, the “mere automation of manual
processes using generic computers does not
constitute a patentable improvement in computer
technology.” Credit Acceptance Corp. v. Westlake
Servs., 859 F.3d 1044, 1055 (Fed. Cir. 2017) (citing
TLI, 823 F.3d at 612; OIP Techs., Inc. v.
Amazon.com, Inc., 788 F.3d 1359, 1363 (Fed. Cir.
2015) ). Similarly, making a “process more efficient”
in itself does not “render an abstract idea less
abstract.” Secured Mail Solutions LLC v. Universal
Wilde, Inc., 873 F.3d 905, 910 (Fed. Cir. 2017).
Ultimately, to be patentable claims must
“sufficiently
describe
how
to
achieve
[an
improvement in computer technology] in a nonabstract way.” Two-Way Media Ltd. v. Comcast
Cable Commc’ns, LLC, 874 F.3d 1329, 1337 (Fed.
Cir. 2017) (finding limitations requiring “sending”
and “directing” of information “d[id] not sufficiently
describe how to achieve these results in a nonabstract way”); see also Affinity Labs of Tex., LLC v.
DIRECTV, LLC, 838 F.3d 1253, 1258–59 (Fed. Cir.
2016) (holding that claims were directed to an
abstract idea where they claimed “the function of
wirelessly communicating regional broadcast content
to an out-of-region recipient, not a particular way of
performing that function”). For example, claims
which recite “generalized steps to be performed on a

63a
computer using conventional computer activity” are
deemed abstract. See In re TLI, 823 F.3d at 612
(citing Enfish, 822 F.3d at 1338).
2. Analysis of the ’794 Patent
With regard to the ’794 Patent, the Court finds that
the asserted claims are directed to an abstract idea,
namely a method of acquiring, transferring, and
publishing data and multimedia content on one or
more websites. See Electric Power, 830 F.3d at 1353;
Intellectual Ventures I LLC v. Capital One Financial
Corp., 850 F.3d 1332, 1341 (Fed. Cir. 2017) (claim
“directed to ... collecting, displaying, and
manipulating data” deemed abstract); see also
EasyWeb Innovations, LLC v. Twitter, Inc., 689 F.
App’x 969, 971 (Fed. Cir. 2017) (“As we have
explained in a number of cases, claims involving data
collection, analysis, and publication are directed to
an abstract idea.”); W. View Research, LLC v. Audi
AG, 685 F. App’x 923, 926 (Fed. Cir. 2017)
(“Collecting information, analyzing it, and displaying
certain results of the collection and analysis are a
familiar class of claims ‘directed to’ a patentineligible concept.”). The Federal Circuit “treat[s]
collecting information, including when limited to
particular content (which does not change its
character as information), as within the realm of
abstract ideas.” Electric Power, 830 F.3d at 1353.
“[M]erely presenting the results of abstract processes
of collecting and analyzing information, without
more (such as identifying a particular tool for
presentation), is abstract as an ancillary part of such
collection and analysis.” Id. at 1354. Here, the
asserted claims “focus [ ] on the combination of ...
abstract-idea
processes[,]”
namely
“collecting

64a
information[,]” transferring information between
devices via a Bluetooth or other wireless connection,
and “presenting the results” of this data collection
and transfer process on one or more websites. Id. at
1353–54.
TLI is instructive. There, plaintiff asserted claims
which were directed to a method of utilizing a
smartphone to record and store digital images and
then transfer those images to an online server for
further processing. See TLI, 823 F.3d at 609-10. The
Federal Circuit highlighted that the problem facing
the inventor was “not how to combine a camera with
a cellular telephone, how to transmit images via a
cellular network .... Nor was the problem related to
the structure of the server that stores the ... digital
images.” Id. at 612. In finding the claims directed to
an abstract idea, the Court held that the claims were
“not directed to a specific improvement to computer
functionality” but instead were “directed to the use of
conventional or generic technology in a nascent but
well-known environment.” Id. As in TLI, the ’794
Patent does do not recite a specific improvement
with regard to “how to combine a camera with a
cellular telephone [or] how to transmit images via a
cellular network.” See id. The ’794 Patent is “not
directed to a specific improvement to computer
functionality” but merely utilizes generic computer
hardware and software components, namely a
“ubiquitous mobile phone,” paired Bluetooth
connection, event notifications, “fairly widespread”
personal digital assistant, and “general purpose
computers and computing devices” to automate the
process of transmitting multimedia content from a

65a
data capture device to one or more websites. (See
’794 Patent at 9:37–48, 10:10–13.)
Plaintiff argues that defendants attempt to
oversimplify the asserted claims as covering only the
abstract idea of acquiring, transferring and
publishing data. According to Cellspin, the ’794
Patent describes “specific improvements” in
acquiring, transferring, and publishing data on the
internet. However, plaintiff fails to identify these
alleged “specific improvements” or otherwise explain
how these improvements result in enhanced
“computer capabilities” rather than “a process that
qualifies as an ‘abstract idea’ for which computers
are invoked merely as a tool.” Enfish, 822 F.3d at
1339.
Cellspin attempts to analogize to two Federal
Circuit cases in arguing that the ’794 Patent is direct
to a specific improvement in computer capabilities,
namely Enfish and McRO. The Court addresses each
case.
In Enfish, the asserted claims were directed to a
self-referential table which had a specified and
nonconventional structure. Id. at 1338. The table
“store[d] information related to each column in rows
of that same table, such that new columns can be
added by creating new rows in the table,” as opposed
to conventional tables, which “require[d] a
programmer to predefine a structure and subsequent
[data] entry [to] conform to that structure.” Id. at
1337–38. As applied here, Enfish is distinguishable
on two grounds. First, Cellspin fails to show that the
data acquisition, transfer, and publication process
described in the ’794 Patent represents something

66a
more than a simple automation of the conventional
(manual) process. As noted above, “relying on a
computer to perform routine tasks more quickly or
accurately is insufficient to render a patent claim
eligible.” OIP Techs., 788 F.3d at 1363 (Fed. Cir.
2015); see also Phoenix Licensing, L.L.C. v. Consumer
Cellular, Inc., No. 6-CV-0152, 2017 WL 1065938, at
*22–23 (E.D. Tex. 2017), report and recommendation
adopted, 2017 WL 1177988 (E.D. Tex. 2017)
(“Problems such as ‘substantial amount of human
involvement,’ ” are “not the type of true technological
problems solved by inventions held to be patenteligible by the Federal Circuit.”) (Emphasis in
original.) By contrast, the claims in Enfish were
directed to the generation of tables with selfreferential functionality which tables generated
pursuant to the conventional method lacked.
Second, unlike Enfish, the ’794 Patent does not
recite a “specific ... structure” of computer
components used to carry out the purported
improvement in computer functionality. Enfish, 822
F.3d at 1337. To fall outside the abstract idea
exception based on improvements to a technological
process, a claim must “sufficiently describe how to
achieve these results in a non-abstract way.” TwoWay Media, 874 F.3d at 1337 (finding limitations
requiring “sending” and “directing” of information
“d[id] not sufficiently describe how to achieve these
results in a non-abstract way”). Here, the patent
states that “the method and system disclosed herein
may be implemented in technologies that are
pervasive [and] flexible” through generic hardware
and software. (’794 Patent at 9:37-48, 10:10-13.) The
asserted patent thus “fails to provide any technical

67a
details for the tangible components” and “instead
predominantly describe[ ] the system and methods in
purely functional terms” using conventional
computer components and existing technology. See
TLI, 823 F.3d at 612. The mere utilization of
Bluetooth or similar wireless technology is not
sufficient, as the patent acknowledges that Bluetooth
was a well-known means to “connect[ ] and
exchang[e] information between devices, for example,
mobile phones, laptops, personal computers (PCs),
printers, digital cameras, etc.” (’794 Patent at 3:49–
53); see also DIRECTV, 838 F.3d at 1258 (finding
that claims directed to establishing a communication
between two points was a “broad and familiar
concept concerning information distribution”).
With regard to McRO, the patents at issue
concerned a method for automating the animation of
lip movement and facial expressions by replacing an
animator’s subjective evaluation with automated
rules. McRO, Inc. v. Bandai Namco Games Am. Inc.,
837 F.3d 1299, 1305 (Fed. Cir. 2016). The McRO
Court highlighted that the claims at issue recited
“many exemplary rule sets that go beyond” merely
identifying “differences in mouth positions for
similar phonemes based on context” which
characterized the subjective manual process. Id. at
1307. Further, the Court noted the lack of “evidence
that the process previously used by animators is the
same as the process required by the claims [at
issue].” Id. at 1314. Specifically, the conventional
process
was
driven
by
subjective
human
determinations “rather than specific, limited
mathematical rules.” Id. The Court thus found that
the “computer is employed to perform a distinct

68a
process to automate a task previously performed by
humans.” Id. Here, by contrast, the asserted claims
perform the same process of acquiring, transferring,
and publishing data that humans previously
performed by using existing wireless protocols and
other well-known technology, albeit automatically
using known computer components. (See ’794 Patent
at 1:38-47; 9:37-60.)
Accordingly, the Court finds that the claims
asserted in the ’794 Patent are directed to an
abstract idea.
B. Stage-Two Inquiry: Sufficient Inventive
Concept?
1. Legal Standard
Having determined that the claims at issue in the
’794 Patent are directed to an abstract idea, the
Stage-Two inquiry requires the Court to “determine
whether the claim elements, when viewed
individually and as an ordered combination, contain
an inventive concept sufficient to transform the
claimed abstract idea into a patent-eligible
application.” Smart Sys. Innovations, LLC v. Chicago
Transit Auth., 873 F.3d 1364, 1373–74 (Fed. Cir.
2017); see also BASCOM Global Internet Servs., Inc.
v. AT & T Mobility LLC, 827 F.3d 1341, 1350 (Fed.
Cir. 2016) (stating that the “inventive concept may
arise in one or more of the individual claim
limitations or in the ordered combination of the
limitations”). “A claim contains an inventive concept
if it ‘include[s] additional features’ that are more
than
‘well-understood,
routine,
conventional
activities.’ ” Id. (quoting Alice, 134 S.Ct. at 2357,

69a
2359). The Federal Circuit has held that “in
addressing the second step of Alice, [ ] claiming the
improved speed or efficiency inherent with applying
the abstract idea on a computer [does not] provide a
sufficient inventive concept.” Intellectual Ventures I
LLC v. Capital One Bank (USA), 792 F.3d 1363, 1367
(Fed. Cir. 2015). “To save a patent at step two, an
inventive concept must be evident in the claims.”
Two-Way Media, 874 F.3d at 1338 (citing
RecogniCorp, 855 F.3d at 1327).
2. Analysis of the ’794 Patent
Turning to the ’794 Patent, the Court finds that the
asserted claims “merely provide a generic
environment in which to carry out” the abstract
ideas of acquiring, transferring, and publishing data.
TLI, 823 F.3d at 611. The claim elements thus fail to
supply an inventive concept sufficient to transform
the underlying abstract idea into patentable subject
matter. As the Federal Circuit explained in
DIRECTV, claims which “recite the use of generic
features of” hardware and software components “as
well as routine functions, such as transmitting and
receiving signals to implement the underlying idea”
do not contain a sufficient inventive idea. DIRECTV,
838 F.3d at 1262.
Here, the “recited physical components[,]”namely a
data capture device, paired Bluetooth connection,
and a Bluetooth enabled mobile device, “behave
exactly as expected according to their ordinary use.”
TLI, 823 F.3d at 615. A patent “does not become
nonabstract” merely because the claims are set in a
“technological
environment”
consisting
of
conventional components and utilize standard

70a
technology. See Symantec, 838 F.3d at 1319; see also
Alice, 134 S.Ct. at 2358. The Federal Circuit has
“repeatedly held that such invocations of computers
and networks that are not even arguable inventive
are insufficient to pass the test of an inventive
concept.”8 Electric Power, 830 F.3d at 1355-56.
Cellspin counters that the Asserted Patents
present several “benefits from the inventiveness of
the claimed technology” including:
(1) the efficiencies of the claimed inventions,
including over inferior alternative means for
achieving the same or similar ends of
uploading content; (2) leveraging Internet
capabilities of mobile devices (through use of
custom hardware and software) to greatly
enhance the functionality of Internet
incapable data capture devices; (3) uploading
captured data from data capture devices to the
Internet while avoiding the cost, memory
usage, complexity, hardware (e.g., cellular
antenna),
physical
size,
and
battery
consumption of an Internet accessible mobile
device, including without the data capture
device being capable of wireless Internet
connections or being capable of communicating
in Internet accessible protocols such as HTTP;
8

Cellspin’s argument that the Asserted Patents are novel and
non-obvious is not relevant to the Section 101 analysis. See
Diamond v. Diehr, 450 U.S. 175, 188-89, 101 S.Ct. 1048, 67
L.Ed.2d 155 (1981) (“The ‘novelty’ of any element or steps in a
process, or even of the process itself, is of no relevance in
determining whether the subject matter of a claim falls within
the § 101 categories of possibly patentable subject matter.”).

71a
(4) minimizing power usage by the data
capture device, including to minimize the need
to change batteries or recharge the device; (5)
using
event
notification,
polling
and
request/return communication protocols over
an already paired connection to have the
benefits from an efficient or automated upload
system while conserving resources such as
batteries by avoiding the data capture device
broadcasting captured data when an
intermediate mobile device is unavailable (e.g.,
off or out of Bluetooth range) or incapable of
receiving captured data for uploading to the
Internet; and (6) applying HTTP in transit and
on intermediary device.
(Opposition at 24.) Plaintiff does not persuade. As an
initial matter, the Court notes that only the first
purported benefit, namely efficiencies for achieving
“the same or similar ends of uploading content” as
the conventional method, appears in the specification
of the ’794 Patent. With regard to this purported
benefit, a method which utilizes known and
conventional computer components to achieve an
improvement in the efficiency or speed of a
previously-manual process does not constitute a
sufficient inventive concept. See OIP Techs., 788 F.3d
at 1363; see also Capital One Bank, 792 F.3d at 1367;
MySpace, Inc. v. GraphOn Corp., 672 F.3d 1250,
1267 (Fed. Cir. 2012) (“While running a particular
process on a computer undeniably improves
efficiency and accuracy, cloaking an otherwise
abstract idea in the guise of a computer-implemented
claim is insufficient to bring it within section 101.”).

72a
The other proffered benefits which relate to
improved battery consumption and power savings;
order or timing of the Bluetooth wireless pairing; and
elimination of the need for bulky hardware and
costly cell phone services; 9 do not appear in the
patent’s specification. In TLI, the Federal Circuit
rejected
plaintiff’s
proffer
of
technological
improvements which did not appear in the asserted
patent’s specification, holding that the court “need [ ]
only look to the specification, which describes the
[components] as either performing basic computer
functions such as sending and receiving data, or
performing functions ‘known’ in the art.” TLI, 823
F.3d at 612; see also Cellular Commc’ns Equip. LLC
v. AT & T Inc., 2017 WL 2984074, at *4 n.1 (E.D.
Tex. 2017) (rejecting argument that a feature was
inventive where the specification did not “reflect
such an insight”). Cellspin argues that these benefits
“flow from” the ’794 Patent but fails to identify any
specific section of the patent from which these
benefits flow or articulate how these purported
benefits “flow from” the patent.10
9

Plaintiff relies on DDR in arguing that the ’794 Patent is
patent eligible because “claimed solution is necessarily rooted
in computer technology in order to overcome a problem
specifically arising in the realm of computer networks.” DDR,
773 F.3d at 1257. However, plaintiff ignores the language in
DDR which specifically “caution[ed]” that “not all claims
purporting to address Internet-centric challenges are eligible
for patent.” Id. 1258.
10

In any event, the specification acknowledges that Bluetooth
was used in the prior art to “connect[ ] and exchang[e]
information between devices, for example, mobile phones,
laptops, personal computers (PCs), printers, digital cameras,
etc.” (’794 Patent at 3:49-52.) With regard to the timing of the

73a
Plaintiff’s amended complaints do not change this
conclusion. (Dkt. No. 58, Amended Complaint.) As an
initial matter, the Court notes that most of plaintiff’s
allegations regarding technological improvements
fail to cite to support in the ’794 Patent. (Id. at ¶¶ 13,
15, 17, 18, 19.) Further, where plaintiff does cite to
the patent these citations do not appear to support
plaintiff’s arguments. For example, the amended
complaint alleges that the Asserted Patents
“improved ... prior computer and networking
technology” by “[m]inimizing power usage by the
data capture device, including [minimizing] the need
to charge batteries or recharge the device.” (Id. at
¶ 19(d) (citing ’794 Patent at 4:66-5:1).) However, the
cited section of the ’794 Patent does not reference
power usage or battery savings, much less support
plaintiff’s allegation of improvements to the same:
By implementation of a handshake protocol,
the BT communication device [ ] automatically
transfers captured data, the multimedia
content, and the associated files to the client
application [ ] on the mobile device [ ]. For
some external digital data capture devices, the
client application [ ] may not be able to detect
the creation of a new file. In such cases, the
digital data capture device [ ] signals the client
application [ ] in the event a new file is
created. A file event listener in the client
application [ ] listens for the signal from
the digital data capture device [ ]. The
Bluetooth wireless paring, “there is nothing ‘inventive’ about
shifting the timing of the data collection process.” In re: Bill of
Lading Transmission & Processing Sys. Patent Litig., 2016 WL
4505767, at *3 (S.D. Ohio 2016).

74a
user may then initiate the transfer by a
press of a button or a key on the digital
data capture device [ ].
(Id. at 4:55-5:1 (portions cited by plaintiff in bold).)
Again, the alleged technological improvements
appear nowhere in the claims or specification and
plaintiff fails to explain how such benefits otherwise
“flow from” the patent. Similarly, plaintiff’s amended
complaint alleges that the asserted claims “conserve[
] resources such as batteries.” (Amended Complaint
¶ 19(e) (citing ’794 Patent at 4:55-5:3 and 5:12-17).)
However, the cited sections do not discuss resource
conversation or batteries.11 (See ’794 patent at 4:555:3 and 5:12-17.) In the same vein, the specification
does not support Cellspin’s allegations regarding
improved cost benefits.12
11

The term “battery” does appear in any of the Asserted
Patents.
12

Plaintiff also relies on Berkheimer in arguing that this
Court should deny defendants’ motions because “the question of
whether a claim element or combination of elements is wellunderstood, routine and conventional to a skilled artisan in the
relevant field .... must be proven by clear and convincing
evidence.” Berkheimer v. HP, Inc., 881 F.3d 1360 (Fed. Cir. Feb.
2018). Here the Court need not reach the issue in the manner
suggested given the analysis performed under the two-stage
test. Berkheimer addressed a defendant’s burden at the
summary judgment stage, not in the context of a motion to
dismiss. In any event, Berkheimer is distinguishable on that
ground that the patent at issue there “describe[d] an inventive
feature that store[d] parsed data in a purportedly
unconventional manner” whereas here Cellspin fails to identify
any portion of the specification which describes the purportedly
inventive power usage, battery savings, resource conservation,
or cost benefits. Id.

75a
C. The ’752, ’847, and ’698 Patents
With regard to the ’752, ’847, and ’698 Patents, the
Court finds that each of the Asserted Patents is
directed to substantially similar abstract idea,
namely a method for capturing, transferring and
publishing
data
and
multimedia
content.
Specifically, each patent recites the use of a
Bluetooth enabled data capture device or digital
camera device to transfer data to a Bluetooth
enabled mobile device which in turn publishes the
data on one or more websites automatically or with
minimal user intervention. (See ’752 Patent at 11:4812:38; ’847 Patent at 12:13-13:3; ’698 Patent at
11:54-12:28.) Where all of the asserted patent claims
are “substantially similar and linked to the same
abstract idea[,]” the Court need not “expressly
address each asserted claim” in determining whether
the claims are patent eligible under Section 101. TS
Patents LLC v. Yahoo! Inc., 279 F.Supp.3d 968, 988
(N.D. Cal. 2017); see also Content Extraction, 776
F.3d at 1348 (finding that the district court “correctly
determined that addressing each claim of the
asserted patents was unnecessary” because “all the
With respect to the Amended Complaint, the Court notes that
the plaintiff did not file the same until two business days before
the hearing on these motions. Accordingly, at oral argument
having heard from plaintiff, the Court allowed defendants to
respond in writing on the impact of plaintiff’s filing. Thereafter,
without requesting permission, plaintiff filed a response in
violation of the procedures set forth in the Local Rules. The
Court issued an Order to Show Cause (“OSC”) regarding the
same. In light of the Court’s ruling herein, the Court GRANTS
permission for the filing nunc pro tunc, DISCHARGES the
OSC and cautions plaintiff to follow the rules of the Court or
risk sanctions for failure to do so. (Dkt. Nos. 74, 75.)

76a
claims are ‘substantially similar and linked to the
same abstract idea’ ”). Here, all Asserted Patents are
“substantially similar and linked to the same
abstract idea” of acquiring, transferring, and
publishing data on the internet. See id.
Further, plaintiff fails to offer any argument or
authority as to why the differences between the ’794
Patent and the ’752 (pushing event notifications
within an already paired and encrypted Bluetooth
connection); ’847 (utilizing an encrypted, paired
Bluetooth connection; pushing event notifications
within an already paired and encrypted Bluetooth
connection); and ’698 Patents (“utilizing an
encrypted paired short-range wireless connection
between a mobile device and incapable digital
camera device) represent an inventive concept
sufficient to transform the claimed abstract idea into
a
patent-eligible
application.”
Smart
Sys.
Innovations, 873 F.3d at 1373–74; see also BASCOM,
827 F.3d at 1350.
The Court thus finds the ’794 Patent is
representative of all Asserted Patents. Accordingly,
the Court finds that the ’752, ’847, and ’698 Patents
are not patent eligible.
IV. CONCLUSION
Having carefully reviewed the pleadings, the
papers and exhibits submitted on this motion, the
parties’ arguments at the hearing held on March 6,
2018, and for the reasons set forth above, the Court
GRANTS the Omnibus Defendants’ motion to
dismiss and GRANTS Garmin’s motion for judgment
on the pleadings.

77a
Defendants shall file a proposed order of judgment
approved as to form within five (5) days for each of
the captioned matters.
IT IS SO ORDERED.

